<html>
<title> - ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
 ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                        THURSDAY, MARCH 2, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Craig, Allard, and Murray.

                          DEPARTMENT OF ENERGY

STATEMENT OF HON. CLAY SELL, DEPUTY SECRETARY


             opening statement of senator pete v. domenici


    Senator Domenici. The hearing will please come to order.
    Senator Reid has indicated that I should start. He may or 
may not be able to come, but we're going to proceed.
    Good morning to you, Mr. Secretary.
    First of all, as many of you may know, Clay is returning to 
this subcommittee, where he served as clerk for 4 years. I'm 
not sure that he wanted me to brag or comment about that, but 
it's a reality, so we might as well say it. I'm very pleased to 
have you here today, and to have you where you are. I'm sure 
you're going to do an excellent job in this very difficult 
arena. And I compliment you on the subject matter that you're 
going to present to us today.
    This one of many of the President's new programs to break 
America's dependence on foreign oil and build America's 
competitive edge. And DOE is the focal point for these 
initiatives.
    Good afternoon, Senator Craig.
    First, I commend the Secretary and the Deputy Secretary for 
setting forth a comprehensive global nuclear strategy that 
promotes nuclear nonproliferation, and the goals of that, and 
helps to resolve our nuclear waste issues at the same time.
    In the 1970's, the United States decided to abandon its 
leadership on nuclear recycling and let the rest of the world 
pass us by. With the creation of this new global nuclear energy 
program, we're going to get back into the ball game.
    Now, it's not so easy to play catch-up from such a far long 
distance behind. It means you've got a lot of hard work. It 
means you've got to have a big vision. It means you've got to 
be willing to put up some resources. And then you've got to 
decide that what you're trying to do is really worth it, that 
it has the potential for solving some big, big problems in the 
future.
    So, based on the current projections, global energy demand 
is expected to double by the year 2050. We must act now to 
ensure that we have a reliable energy source, without 
increasing air pollution and without increasing greenhouse 
gases.
    Passage of the Energy bill last year created a new future 
for nuclear power in this country, and it's interesting to note 
that the rest of the world is aware of the same thing we are 
aware of. We finally changed our policy, the rest of the world 
has finally decided to change their modus operandi, and they 
are also moving rather quickly into nuclear power reactors as 
source of energy for their countries. And that's China and many 
others, Larry, as we know.
    In the year 2006 Energy Outlook, the Energy Information 
Agency has included in its estimates, believe it or not, a 
growth in nuclear power as part of the domestic energy picture. 
Now, that's a simple statement to make. And for many, it 
doesn't mean much. But when the Energy Information Agency looks 
out there and assesses what's going on, they usually come up 
with some pretty objective findings. And they have made a 
decision, a determination that nuclear power is going to come 
onboard in the United States by way of nuclear power plants. 
With the GNEP, we began to close the cycle on nuclear waste in 
ways that prevent proliferation and reduce both the volume and 
the toxicity of waste. By recycling of spent nuclear fuel, we 
can reuse the uranium, which is 96 percent of the spent fuel. 
We can separate the most toxic radioactive material to be 
burned in advanced burner reactors.
    By reusing the fuel and burning the transuranic material, 
we can reduce the amount of waste that would be placed in a 
Yucca Mountain by 100 times. In other words, a Yucca Mountain 
will hold the waste from 100 times as much nuclear power as it 
will today, putting the spent fuel rods in, as we would put 
them in under current law and current policy.
    So, I am pleased that President has focused on the 
importance of solving the energy needs. I don't want to lose 
sight of the importance of implementing the Energy Policy Act, 
which contains many important incentives that will support the 
deployment of clean coal technology, advanced nuclear power 
plants, biomass, and other renewable projects.
    Mr. Secretary, it's my pleasure to welcome you back, and 
then, after yielding to Senator Craig, I'd ask you to summarize 
your statement, and it'll be made a part of the record.
    Senator Craig.


                  STATEMENT OF SENATOR LARRY E. CRAIG


    Senator Craig. Well, Mr. Chairman, thank you very much. 
Clay, welcome before the committee.
    I'm sitting here listening to you, Mr. Chairman, and 
saying, gee whiz, a year ago, this time, we didn't know if we 
were going to get an Energy bill. There were no incentives for 
new nuclear plants, no risk insurance, no tax credits, no loan 
guarantees. A year ago, there were no real plans for any new 
nuclear plants to be built in the United States. A lot of need, 
a lot of concern. The utility industry was looking, in the out 
years, to baseload, wanting to do nuclear. But today we believe 
there are 19 new reactors on the drawing boards of America's 
industries.
    So, it is a phenomenal transition, Mr. Chairman, from where 
we were to where we are. And how we keep that going is going to 
be awfully important, not only for the future of our country, 
but literally for the future of the world. The President, with 
his India nuclear deal of 14 reactors, just in the last 24 
hours, is a big deal. It's an important deal as it relates to 
proliferation and our ability to get our collective, and the 
world's collective, arms around spent fuels and all of that 
type of thing. And I applaud you, Clay, for the work you've 
done on GNEP, or the Global Nuclear Energy Partnership. It is a 
very important component in where we head as a world into 
resolving the waste stream issue and a concern that may exist 
still by some, as there is legitimacy to it, of proliferation.
    As you know, I and others have worked awfully close on--and 
with you--on a new-generation concept beyond GNEP. And we 
actually legislated it into the policy. And these are policies 
that fit well together, and should be looked at in that 
context, I would hope. And I say that, because clearly the 
technology is there, not only for nuclear, but the President's 
initiative. His bold step, very early on in the administration, 
to link hydrogen to the ability of the nuclear industry, led 
me, this past week, to go downtown to NEI R&D summit and 
challenge them, and say, ``Why don't you get outside this big 
new box you're in. It's an exciting box, building new reactors, 
building new baseload, bringing in the efficiencies of clean, 
non-emitting energy. At the same time, you're still thinking of 
it in the context of nuclear generation alone. Maybe we ought 
to think beyond that, to not only nuclear generation, but 
hydrogen production, not unlike what the folks in the coal 
industry are doing with Future Gen.'' And so, it's not that I 
coin a phrase, but I said, ``Why don't we talk about Freedom 
Gen? Why don't we get this country up off its knees and start 
running?'' You know, I was one of those--and Pete and I--the 
problem we've got in this committee is that we think we know so 
much about energy--and we, collectively, do, thanks to people 
like you, who used to be with us, and other great staff 
people--and when somebody says, ``You know, this Nation could 
be energy independent,'' we all step back and say, ``Whoa, 
whoa, whoa. I don't think we could ever get there.''
    I think how exciting it is for this President--and we 
almost got him there in the State of the Union--to challenge 
this country to get well beyond where it ever thought it could 
go. It's those kinds of challenges that really have made this 
country great. It is not impossible, from an electric 
standpoint, with coal new technology, nuclear new technology, 
to be independent there, that's for sure, and then to start 
adding other components to it. The Energy bill that we passed 
in July, that was signed in August, does just that. And because 
many of us were concerned about where we went with other world 
initiatives out there that related to climate change, we 
challenged this President. You all met the challenge. He went 
out and started talking about an Asia-Pacific initiative that 
makes an awful lot of sense and fits into the GNEP concept 
beautifully well.
    So, there are an awful lot of exciting things happening out 
there. And I think this committee is--has done what oftentimes 
in Congress we really don't get done, we've actually created, 
thanks to your leadership, Mr. Chairman, a significant and 
powerful new national policy that is now moving and driving. 
And we need to strengthen it where we can. We need to add new 
to it where we will. Your leadership at the Department of 
Energy with this Secretary will help us a great deal.
    So, I'm anxious to hear your presentation as it relates to 
the Global Nuclear Energy Partnership. And then let's see how 
we can blend it with other initiatives underway to see if there 
is an economy of scale and a value that can be created by all 
of these things converging together into our budgets and into 
the technology and capability of America's mindset.
    Thank you, Mr. Chairman.
    Senator Domenici. Thank you, Senator.
    Senator Allard, first of all, let me say I'm very pleased 
that you're with us. You're not brand new; I didn't mean that. 
But, you know, we haven't had you around very long. And you're 
going to find this is a very fun subcommittee with lots of work 
to do. And some of the things that you've been working on are 
here, and you'll have a lot more opportunity to work on them, 
because you'll fund them here. So, if you'd like to make a few 
opening remarks, we'll let you----
    Senator Allard. Well, I'd love to, Mr. Chairman.
    Senator Domenici. If you'll make them as brief as you can, 
because of the 3 o'clock vote?
    Senator Allard. Oh, I'll do that, Mr. Chairman.


                   STATEMENT OF SENATOR WAYNE ALLARD


    Senator Allard. First of all, I'm absolutely thrilled to be 
a part of this committee, and was glad I had the opportunity to 
serve on it, because you've been such a leader on meeting our 
energy needs in this country, and I want to join you in that 
effort.
    You know, there's no doubt in my mind that we need to have 
an ample source of energy--to meet the security needs of this 
country, primarily, but also just to meet consumer needs, and 
for us to be competitive throughout the world.


                           PREPARED STATEMENT


    I have a couple of pages here of comments. I'm just going 
to ask that they be inserted into the record, in addition to 
what I've just stated.
    And I look forward to working with you, Secretary Sell, 
because I do want to give my colleagues an opportunity to say a 
few remarks, also.
    Thank you, Mr. Chairman.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Mr. Chairman, I am very pleased to be a member of this committee, 
and I thank you for holding this very important hearing today. I think 
that nuclear energy is one of the most promising energy sources before 
us. It promises large supplies of clean energy. I have long said that 
America must diversify its energy sources, and the option of using 
nuclear simply must be on the table.
    Many people have been critical of the United States for not signing 
on to the Kyoto Protocol. Now, several years later when those countries 
that did join are being required to meet their first targets, many are 
not able to do so. France is one of the few countries meeting its 
target, and they are doing so largely because they are heavily reliant 
on nuclear energy.
    When we stopped reprocessing in the 1970's, England, France and 
Japan kept moving forward. They are now operating successful 
reprocessing facilities. Several years ago I visited sites in France 
and England where they are currently reprocessing spent nuclear fuel. 
The process is safe and efficient, and something that we should have 
been doing in this country years ago.
    There is a large up-front investment that has to be made in order 
to reprocess spent fuel. But I would like to use an analogy that some 
people may find easier to understand. To build a house in an energy 
efficient manner is more expensive to build one to regular standards. 
You have to spend more on higher quality insulation, solar panels cost 
money, more efficient appliances cost a little more. But you save a lot 
of money down the road when you pay less in utility charges. Similarly, 
while the investment for a reprocessing facility is high, because 96 
percent of the fuel can be reused, much less must be expended on 
storage down the road, and much less ``new'' fuel must be acquired.
    I look forward to working with my colleagues and the administration 
on this very important issue.

    Senator Domenici. Before I call on Senator Murray, let me 
say to the Senators that are here, I understand we have two 
votes at 3 o'clock. And the Energy Committee, which is the two 
of us, we have a 3:30 meeting.
    Senator Allard, is there any--by any chance, could you use 
part of your afternoon to wrap up these hearings, if we have 
to?
    Senator Allard. I believe I can, but let me check my 
schedule, please, and I'll get back to you in just a minute.
    Senator Domenici. Senator Murray, would you like to make a 
few opening remarks?

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. I would, Mr. Chairman, thank you.
    And I understand the time limitations, but I did want to 
say, Secretary Sell, first, thank you, and good afternoon. It's 
good to see you back on the Hill.
    I do have significant reservations, I have to say, about 
the Department's GNEP proposal. Energy security in our Nation 
is a top priority for me, like everyone, and we have to do more 
to wean ourselves off foreign imports of energy sources and 
replace them with some secure domestic sources. But I strongly 
question whether GNEP is the answer. I'm not opposed to nuclear 
energy. All sources of energy have to be explored and utilized 
if we're to find the best mix for the United States to achieve 
energy independence. But that requires taking a very hard look 
at possible sources, and considering several factors, including 
availability, technical feasibility, environmental impact, and 
the economics of developing that new resource. And we also have 
to look for solutions to our energy problems now in using those 
criteria. That's why I think this proposal falls short.
    From what I can tell, it has not gone through the necessary 
peer review, it's without strong economic cost analysis, and it 
does nothing to address our energy needs in the near-or mid-
term.
    But before we go further, I have to point out that this 
proposal seems to gloss over the difficulty this country has in 
managing our nuclear waste. And I want to revisit quickly 
another proposal on cleanup offered by DOE. Accelerated cleanup 
was sold as a plan to focus on one contaminated site, and once 
that site was cleaned up and closed, the funds would then be 
redirected to other sites to accelerate cleanup. The good news, 
of course, is Rocky Flats was closed this year. But the bad 
news is, is the EM budget request is cut by $762 million in 
2007. DOE broke that deal with the sites, the States, and the 
Congress. And rather than addressing the nuclear waste legacy, 
DOE has shifted focus to other areas and left our communities 
holding the bag.
    I'm particularly disturbed by comments made by Under 
Secretary Garman, when he spoke to the Energy Facility 
Contractors Group last month. He called for us to get honest 
about the cleanup projects left around the country. The context 
of those comments is, the cleanup agreements between the 
Government and the States. The Government is failing to meet 
milestones. Funding is being cut back. And DOE officials are 
telling our States to get honest. DOE signed these agreements 
and should not be looking to break them.
    It's another example of the mixed messages that DOE sends 
on its cleanup responsibilities. Last year, I had to fight very 
hard for funding for the vit plant on the Hanford site. I was 
told by Secretary Bodman, and by you, that DOE stood behind the 
project. I found that hard to believe, when the only DOE funds 
offered up for rescission was the $100 million from the vit 
plant.
    In the President's 2007 budget proposal, there is $690 
million for the vit plant, and I'm relieved. The budget request 
is finally where it should be. But the funds for the tank farm 
activities are down by $52 million, which includes a zeroing 
out of bulk vit plant. That was proposed by the administration 
as a way to get the tank waste treated faster, and now the 
request is zero.
    So, let's get honest. DOE has a poor record when it comes 
to managing nuclear waste. GNEP will add the waste inventory, 
while doing nothing in the near term to help achieve energy 
independence. Today there is no place to permanently store 
spent nuclear fuel. The request for GNEP is $250 million, while 
the request for EM funds is down. It's striking to me that DOE 
has proposed a project that would create the same kind of waste 
that we are struggling to retrieve and treat at the Hanford 
Tank Farm. I have many concerns, and I'm eager to hear your 
presentation and to address them during the appropriations 
cycle.
    Thank you, Mr. Chairman.

               PREPARED STATEMENT OF SENATOR THAD COCHRAN

    Senator Domenici. Thank you very much. Senator Cochran has 
submitted a statement which we will also include for the 
record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming Deputy 
Secretary Sell to the subcommittee, and I look forward to his testimony 
about the fiscal year 2007 Budget Proposal for the Global Nuclear 
Energy Partnership.
    Secretary Sell, welcome back to the subcommittee where you worked 
as clerk for 4 years. Your service on this important subcommittee gives 
you a solid background to execute our national global nuclear strategy. 
I am pleased that the Department of Energy is working on a long term 
strategy to address the nuclear needs of our Nation, from the execution 
of our nuclear security to the deployment of new nuclear power plants. 
There is a great need for nuclear power in this country, and as we look 
to the future, there is going to be an increased need for energy 
production. Nuclear must be a significant part of that production.
    My State is home to the Grand Gulf nuclear power facility in Port 
Gibson, Mississippi. In addition, we are a leading site to host a new 
commercial nuclear power plant, which will not only provide jobs and 
stimulate economic development, but could also provide future rate 
relief to my State's electricity customers. The support of this new 
facility would relieve the burden of high cost natural gas currently 
used to generate electricity.
    Lastly, in order to support the exiting fleet of nuclear power 
plants, as well as support the building of new nuclear facilities, we 
must recognize the nuclear spent fuel situation. Customers have been 
contributing to the nuclear waste fund for many years and have seen 
little benefit from their investment. Utilities have been in litigation 
with the government spending millions of dollars in legal fees over the 
issues surrounding spent fuel. I hope that we will work to address 
these problems so that this country can build a clean and reliable 
fleet of new nuclear plants.
    We will continue to discuss the details of this program over the 
next few months. I look forward to working with you and my colleagues 
on the Appropriations Committee to analyze this new initiative and make 
the best decisions for fiscal year 2007. Thank you for your good 
assistance in our efforts to make wise decisions.

    Senator Domenici. Mr. Secretary, please proceed.
    Mr. Sell. Thank you very much, Mr.--
    Senator Domenici. Don't worry about that.

                      STATEMENT OF HON. CLAY SELL

    Mr. Sell. Well, I don't want to lose my audience too 
quickly.
    Mr. Chairman, Ranking Member Reid, Senator Craig, Senator 
Allard, Senator Murray, it is truly an honor and a great 
pleasure for me to have this opportunity to come back before 
this subcommittee to discuss the administration's proposed 
Global Nuclear Energy Partnership, or what we call GNEP.
    Thank you for allowing my written statement to go into the 
record, and I would like to make some summary comments. And I 
will try to do that in 5 or 7 minutes.
    In many respects, I believe it is appropriate that the 
first public hearing on GNEP occur here before this 
subcommittee. From Chairman Domenici's 1997 Harvard speech 
calling for a broad reconsideration of nuclear policy and 
reprocessing, to this committee's role in funding plutonium 
disposition, to this committee's role in funding a great 
breadth of nonproliferation initiatives, to the creation of the 
Advanced Fuel Cycle Initiative under the chairmanship of then-
Chairman Reid in 2002, this committee, along with your 
counterparts in the House, has always provided great bipartisan 
leadership on nuclear matters within our government. So, it is 
a pleasure to be here today to discuss GNEP.
    I would like to tell you today why we are proposing GNEP. 
I'd like to elaborate on what it exactly is and how we propose, 
with the support of this subcommittee, to get started.
    The President has stated a policy goal of promoting a great 
expansion of nuclear power here in the United States and around 
the world. The reasons for this are obvious. As the chairman 
said, the Department of Energy projects that total world energy 
demand will increase--will double by 2050. And looking only at 
electricity, projections indicate an increase of over 75 
percent in the next 20 years--75 percent increase in 
electricity demand over the next 20 years.
    Nuclear power----
    Senator Domenici. Now, that's worldwide.
    Mr. Sell. That's worldwide.
    Senator Domenici. Worldwide.
    Mr. Sell. Nuclear power is the only mature technology of 
significant potential to provide large amounts of completely 
emissions-free baseload power to meet this need. It will result 
in significant benefits for clean development around the globe, 
reduced world greenhouse gas intensities, pollution abatement, 
and the security that comes from greater energy diversity.
    But nuclear power, with all of its potential for mankind, 
carries with it two significant challenges. The first: What do 
we do with the nuclear waste? And the second one: How can we 
prevent the proliferation of fuel-cycle technologies that lead 
to weaponization?
    GNEP seeks to address and minimize these two challenges by 
developing technologies to recycle the spent fuel in a 
proliferation-resistant manner and support a reordering of the 
global nuclear enterprise to encourage the leasing of fuel from 
what we'll call ``fuel-cycle states'' in a way that presents 
strong commercial incentives against new states building their 
own enrichment and reprocessing capabilities.
    Regarding our own policy on spent nuclear fuel, the United 
States stopped the old form of reprocessing in the 1970's, 
principally because it could be used to produce plutonium. But 
the rest of the major nuclear economies, in France, in Great 
Britain, in Russia, in Japan, and in others, continued on 
without us. The world today has a buildup of nearly 250 metric 
tons of separated civilian plutonium. It has vast amounts of 
spent fuel. And we risk the continued spread of fuel-cycle 
technologies.
    If we look only for a moment at the United States, we are 
on the verge of a U.S. nuclear renaissance. In many respects, 
due to the provisions enacted in the Energy Policy Act of 2005, 
new plants will be built. But if we want many more built--and 
we need them--I believe the United States must rethink the 
wisdom of our once-through spent-fuel policy. We must move to 
recycling.
    This administration remains confident that Yucca Mountain 
is the best location for the United States--for a permanent 
geologic repository. And getting that facility licensed and 
opened remains a top priority. Whether we recycle or not, we 
must have Yucca Mountain. But the capacity of Yucca Mountain, 
as currently configured, will be oversubscribed by 2010. If 
nuclear power remains only at 20 percent for the balance of 
this century, we will have to build the equivalent of nine 
Yucca Mountains to contain once-through spent fuel.
    The administration believes----
    Senator Domenici. Would you make that statement again?
    Mr. Sell. If we continue to have nuclear generation at 20 
percent for the balance of this century, because of our once-
through spent-fuel policy, we will have to build the equivalent 
of nine Yucca Mountains.
    The administration believes that the wiser course is to 
recycle the used fuel coming out of the reactors, reducing its 
quantity and its radiotoxicity so that only one Yucca Mountain 
will be required for the balance of this century.
    So, what exactly is, then, GNEP? GNEP really is----
    Senator Domenici. Can I interrupt you?
    Mr. Sell. Yes, sir.
    Senator Domenici. And that one Yucca Mountain, under that 
scenario, would not be filled with the kind of waste we plan on 
putting in it now, right?
    Mr. Sell. It would be filled--we still have a significant 
amount of Defense waste, in Senator Murray's home State, in 
Senator Craig's home State, that will go to Yucca Mountain. And 
there----
    Senator Domenici. I'm speaking of the domestic side.
    Mr. Sell. And on the commercial spent fuel, we believe that 
up to 90 percent of commercial spent fuel could be recycled 
before going to Yucca Mountain.
    Senator Domenici. Which means it would be a different spent 
fuel.
    Mr. Sell. It would be--it would be in a condition with a 
very low--with a peak dose occurring in year one thousand 
versus year one million. It would be in a more stable glass 
form. And it's the radiotoxicity of the waste which really 
drives capacity size. And by reducing the radiotoxicity, you 
could fill Yucca Mountain with this glacious stable waste. And 
that would--we think, would be enough for this century.
    Senator Domenici. Excuse me for interrupting. Thank you.
    Mr. Sell. GNEP is really about identifying the policies, 
developing the technologies, and building the international 
regimes that would manage and promote such a growth in nuclear 
generation in a way that enhances our waste management and 
nonproliferation objectives.
    The program and its full detail is laid out in my prepared 
statement. But I would like to focus on a few of the key 
engineering and development efforts that are key to GNEP's 
success.
    First, the Department of Energy seeks to greatly accelerate 
its work in the demonstration of advanced recycling. This 
effort builds on the Advanced Fuel Cycle Initiative initiated 
by this--or by Congress, and specifically this committee, 
several years ago. We have developed, in the laboratory, 
recycling technology that does not separate plutonium like the 
current reprocessing technologies that are used around the 
globe. Rather, it keeps the actinides together, including 
plutonium, so that they can be made into fuel to be consumed in 
fast reactors that will also produce electricity. By not 
separating plutonium and building in the most advanced 
safeguard technologies, recycling can be done in a way that 
greatly reduces proliferation concerns.
    Another key objective of GNEP would be to demonstrate, at 
engineering scale, an advanced burner reactor that can be used 
to consume plutonium and other actinides, extract the energy 
potential out of recycled fuel, reducing the radiotoxicity of 
the waste in repeating cycles so that the waste that comes out 
of the reactor requires dramatically less geologic repository 
space.
    These technologies come together in the reliable fuel 
services framework. GNEP will build and strengthen a reliable 
international fuel services consortium under which fuel 
supplier nations would choose to operate both nuclear power 
plants and fuel production and handling facilities while 
providing reliable fuel services to user nations that choose to 
only operate nuclear power plants. This international 
consortium is a critical component of the nonproliferation 
benefits of the GNEP initiative.
    The notion is as indicated on the first chart over here--in 
exchange for assured fuel supply, on attractive commercial 
terms, user nations that are interested in bringing the 
benefits of nuclear power to their economies would suspend any 
investments in enrichment and recycling. Under the Non-
Proliferation Treaty, they have a right to do that. They have a 
sovereign right. And what we are trying to provide is 
attractive commercial incentives that would discourage them 
from acting on those rights.
    There are two other key elements of GNEP, from a technology 
development standpoint. We would hope to work in partnership 
with other nations to develop small proliferation-resistant, 
perhaps modular or factory-built reactors that are appropriate 
for the grids of the developing world. And, in fact, many of 
the technologies, Senator Craig, being developed as part of the 
next-generation nuclear plant are appropriate--particularly the 
gas reactor technology--are appropriate candidates for these 
types of small-scale reactors.
    And, in all cases, we will work to develop and incorporate 
in the most advanced safeguards technologies and ensure and 
emphasize best practices for handling of nuclear materials 
worldwide.
    So, how do we hope to begin? In fiscal year 2006 and 2007, 
the Department proposes to concentrate its efforts on 
technology development to support a 2008 decision on whether to 
proceed with these demonstrations. In general terms, our $250 
million request for 2007 funding is to initiate work on 
separations and advanced fuels technology development, 
transmutation engineering, systems analyses, and planning 
functions to support the demonstration of a UREX+ recycling 
plant and to support, over a 10-year period, the demonstration 
of an advanced burner reactor.
    In conclusion, we need to pursue all energy technologies to 
address the anticipated growth in demand for energy. But, 
clearly, the growth of nuclear energy is vitally important for 
the United States and for the world.
    Our country can choose to continue down the current path, 
or we can lead the transformation to a new, safer, and more 
secure approach to nuclear energy, an approach that brings the 
benefits of nuclear energy to the world while reducing 
vulnerabilities from proliferation and from nuclear waste. We 
believe that we are in a stronger position to shape the future 
if we are part of it and if we are leading it. And, in many 
respects as it relates to the fuel cycle, the United States has 
yielded our leadership position over the last 30 years. We 
think we need to reclaim it.
    Challenges remain in demonstrating the GNEP technologies. 
But without GNEP, there will be more plutonium throughout the 
world for generations to come. There will be more spent fuel. 
There will be greater proliferation risk. There will be more 
greenhouse gases emitted into the environment, and less energy 
here at home and abroad. The Global Nuclear Energy Partnership 
is not a silver bullet, but it is part of a broad strategy, 
that, when combined with advancements in renewables, clean 
coal, and other technology developments, can, and will, make a 
difference in the security, environmental, and energy 
challenges that we face.

                           PREPARED STATEMENT

    I ask, and I seek, the committee's support of this 
initiative. I look forward to your questions. And I look 
forward to working with you as the year progresses.
    I'm pleased to take any questions you have.
    [The statement follows:]

                  Prepared Statement of Hon. Clay Sell

    Mr. Chairman, Senator Reid, and members of the subcommittee, it is 
a pleasure to be here today to discuss the Department of Energy's 
fiscal year 2007 budget request of $250 million, to begin investments 
in the Global Nuclear Energy Partnership (GNEP). This new initiative, 
which is part of President Bush's Advanced Energy Initiative, is based 
on a simple principle: that energy and security can go hand in hand.
    It is a comprehensive strategy that would lay the foundation for 
expanded use of nuclear energy in the United States and the world by 
demonstrating and deploying new technologies that recycle nuclear fuel, 
significantly reduce waste, and address proliferation concerns. GNEP 
seeks to encourage the future leasing of fuel from fuel cycle states in 
a way that allows new states to enjoy the benefits of abundant sources 
of clean, safe nuclear energy in exchange for their commitment to forgo 
enrichment and reprocessing activities, to help alleviate proliferation 
concerns.
    The Department of Energy recently estimated that the global demand 
for energy may increase as much as 50 percent by 2025, with more than 
half of that growth coming from the world's emerging economies. 
Specifically, regarding electricity, the growth is projected to be 
particularly steep, increasing over 75 percent over the next two 
decades. To begin addressing that challenge today, the President has 
stated a policy goal that includes world-wide expansion of nuclear 
power.
    The reasons for this are clear. Nuclear power is a mature 
technology of significant potential to provide large amounts of 
emissions free base load power. Benefits from nuclear power include the 
abatement of greenhouse gas emissions, air pollution, and energy 
diversity. Other nations have reached a similar conclusion. With 24 new 
nuclear plants under construction world wide and additional plants 
planned or under consideration, it is important that nuclear energy 
expand in a way that supports safety, security, and the environment.
    All of these factors point to the need for a widespread expansion 
in the use of nuclear energy. To encourage and support such an 
expansion, the Department is advocating a new approach to the fuel 
cycle which we believe will significantly enhance our management of 
used nuclear fuel. This approach should allow us to make more efficient 
use of our uranium resources. Based on technological advancements that 
would be made through GNEP, the volume and radiotoxicity of waste 
requiring permanent disposal will be greatly reduced, delaying the need 
for an additional repository through the end of the century.
    To meet the goals of GNEP, the Department has developed a broad 
implementation strategy comprised of seven elements.
    First, we must sustain and expand the use of nuclear power in the 
United States. Action is needed to ensure that there are successor 
plants to those that supply nearly 20 percent of our electricity. 
Efficiency gains to existing reactors over the past decade have added 
the equivalent of 25 additional reactors to the grid, but such gains 
are approaching a limit. We must build on advances made by the 
President and Congress to stimulate new nuclear plant construction.
    In 2002, the administration announced the Nuclear Power 2010 
program, a cost-shared initiative with industry aimed at demonstrating 
the streamlined regulations for siting and constructing new nuclear 
plants. Much progress has been made since this program was first 
announced and today the Department is sponsoring two demonstrations 
aimed at submitting and obtaining approval of the first combined 
Construction and Operating License (COL) applications.
    DOE is currently working with two consortia of nuclear generating 
companies and vendors to prepare and submit these COL applications to 
the NRC by 2007 and 2008, respectively. This, together with the 
incentives enacted through the Energy Policy Act of 2005 (EPACT 2005) 
will enable generating companies to proceed with new nuclear plant 
projects.
    The Department is responsible for implementing the Standby Support 
for Certain Nuclear Plant Delays provisions of EPACT, which is a form 
of Federal risk insurance to encourage investment in advanced nuclear 
power facilities by providing coverage for certain costs resulting from 
certain regulatory or litigation delays. Additionally, EPACT 2005 
contains provisions for production tax credits for advanced nuclear 
facilities, and a loan guarantee program for low-emission energy 
production technologies, such as nuclear power plants. We are confident 
we will see new plants under construction within the next 10 years.
    Second, we must address the issue of nuclear waste. A geologic 
repository is a necessity under all fuel management scenarios, and the 
2007 budget request provides $544.5 million to maintain steady progress 
toward opening the Yucca Mountain repository.
    Under GNEP, commercial spent nuclear fuel would be recycled so that 
transuranic elements would be consumed, not disposed of as waste. 
Residual waste fission products would be reconfigured for disposal at a 
geologic repository. In addition, direct disposal will be the only 
option for a small portion of older commercial spent fuel and certain 
specialized fuels for which separations processes have not been 
developed.
    GNEP would provide three improvements to spent fuel disposal at a 
repository by significantly reducing the volume of nuclear waste, 
enhancing thermal management by reducing the waste form heat load, and 
reducing the amount of long-lived radionuclides requiring disposal 
eliminating the need for an additional repository through the end of 
the century.
    Third, we propose to demonstrate recycling technology that would 
enhance the proliferation-resistance of the fuel cycle compared to 
existing reprocessing technologies called Plutonium-Uranium Extraction 
or PUREX. To accomplish this, the Department would accelerate through 
the Office of Nuclear Energy, Science and Technology's Advanced Fuel 
Cycle Initiative (AFCI), the development, demonstration, and deployment 
of new technologies to recycle spent fuel--these are technologies that 
would not result in separated plutonium--a key proliferation concern 
presented by current generation reprocessing technologies. Moreover, 
this technology would only be deployed in partnership with other fuel 
supplier nations.
    The AFCI program legislated by the Congress has over the years 
identified promising advanced nuclear technology options that are 
sufficiently developed to allow for a demonstration program to proceed. 
Acting now will enable us to help shape the global fuel cycle and 
prepare to accommodate growth in emission-free nuclear power.
    In support of this effort, the United States would propose to work 
with international partners to conduct an engineering-scale 
demonstration of advanced recycling technologies (e.g., a process 
called Uranium Extraction Plus or UREX+), that would separate the 
usable components in used commercial fuel from its waste components, 
without separating pure plutonium.
    Fourth, the United States would develop and demonstrate Advanced 
Burner Reactors (or ABRs). These ``fast neutron'' reactors would be 
designed to consume transuranic elements in used fuel from nuclear 
power plants, avoiding the need to accommodate this radioactive, 
radiotoxic, and heat-producing material in a geologic repository for 
hundreds of thousands of years while it decays. The Department would 
also propose a new facility that could potentially serve the fuel 
testing needs of the Nation for the next 50 years, and be used to 
develop and test the fuels for the advanced burner reactor made from 
the transuranic product from the UREX+ process.
    Fifth, GNEP would build and strengthen a reliable international 
fuel services consortium of nations with advanced nuclear technologies 
to enable developing nations to acquire nuclear energy while minimizing 
nuclear risk. Under a cradle-to-grave fuel leasing approach, fuel 
supplier nations would provide fresh fuel to conventional nuclear power 
plants, including small scale reactors, located in user nations that 
agree to refrain from enrichment and reprocessing.
    Used fuel would then be returned to the fuel supplier nations and 
recycled using a process that does not result in separated plutonium. 
The recycled fuel would then be used in an ABR in fuel supplier 
nations. Arrangements would be available to assure secure supply to 
user nations. Such an approach would allow user nations to receive the 
benefit of having a reliable supply of reactor fuel without having to 
make the significant infrastructure investments required for enriching, 
recycling and disposal facilities.
    This approach builds on and goes beyond current International 
Atomic Energy Agency (IAEA) obligations--user nations would consent to 
refrain from enrichment and reprocessing for an agreed period, based on 
economic interest. States choosing to stay outside the GNEP framework 
and develop their own fuel cycle facilities would receive increased 
scrutiny. We recognize that there are responsible states that have 
partial fuel cycles, that do not fit the basic conceptual model, but 
whose interests can be accommodated in the GNEP framework.
    Sixth, the United States would work with the international 
community to pursue development and deployment of small-scale reactors 
designed to be cost-effective, inherently secure and well-suited to 
conditions in developing nations. The United States would also 
encourage developing and deploying a small scale reactor that utilizes 
the same nuclear fuel for the lifetime of the reactor, eliminating the 
need for fuel replacement. As world population increases by 3 billion 
people by 2050, energy demands and world cities will expand, making it 
all the more important to provide the option of meeting some of that 
increased energy demand without increased greenhouse gas emissions or 
pollution.
    Finally, under GNEP, an international safeguards program is an 
integral part of the global expansion of nuclear energy and the 
development of future fuel cycle technologies with enhanced 
proliferation-resistance. In order for the IAEA to effectively and 
efficiently monitor and verify nuclear materials, the United States 
would propose to design advanced safeguards approaches directly into 
the planning and building of new, advanced nuclear facilities and 
small-scale reactors. Over the next year, we will work with other 
elements of the Department to establish GNEP, paying special attention 
to developing advanced safeguards and developing the parameters for 
international cooperation. We will also continue to work closely with 
IAEA and our international partners to ensure that civilian nuclear 
facilities are used only for peaceful purposes.
    The Department has proposed $250 million in the fiscal year 2007 
budget as an initial step of a plan to accelerate the development of 
technology as part of GNEP. With these funds, the Department would 
focus its AFCI research and development on preparing for an 
engineering-scale demonstration of the most promising recycling 
technologies, such as the UREX+ separations technology, advanced burner 
reactors and an advanced fuel cycle facility, used to fabricate and 
test the fuels for advanced burner reactors.
    This request represents the Department's best assessment of the 
GNEP program technical development priorities and sequencing toward 
demonstration facilities. The fiscal year 2007 request shows that 
significant growth in funding over the fiscal year 2007 request is 
necessary for the planning of the three integrated demonstration 
facilities.
    In fiscal year 2006, mission need would be established for these 
facilities and the Department would begin work on an Environmental 
Impact Statement for the three facilities, which would continue through 
fiscal year 2007. In parallel with this, in both fiscal year 2006 and 
fiscal year 2007, the Department would continue research and 
development to refine the UREX+ technology, begin work on a conceptual 
design report, acquisition strategy, functions and operating 
requirements and other analyses leading to the development of baseline 
costs and schedules for the UREX+ demonstration, the advanced burner 
reactor, and the advanced fuel cycle facility by the end of 2007.
    The Department would propose to invest $25 million on the advanced 
burner reactor technology in fiscal year 2007, to complete pre-
conceptual design and complete a series of extensive studies to 
establish cost and schedule baselines and determine the scope, safety, 
and health risks associated with fuel design, siting and acquisition 
options. Last month, the United States signed a systems arrangement 
agreement with France's atomic energy commission and the Japan Atomic 
Energy Agency to cooperate on the development of sodium fast reactors. 
It is anticipated that this agreement will establish the foundation for 
further collaborations on fast reactors with these countries, and 
others that are expected to join the agreement in the future, in 
support of GNEP.
    The Department's goal is to continue research, development and 
experiments on the key technologies, complete technical and economic 
feasibility studies and develop a more detailed costs and schedules for 
these demonstration facilities to inform decisions by early 2008 on 
whether to proceed to the next phase, building these demonstration 
facilities. Appropriate pilot scale research and development for the 
demonstration projects would proceed to develop an improved planning 
basis for these facilities.
    More accurate estimates of the demonstration phase will be 
available as the conceptual design phase is completed. As noted 
earlier, the Department has already started to engage other countries 
and we will be looking for a sizeable portion of GNEP costs to be 
shared by our partners and industry starting in fiscal year 2008.
    In summary, nuclear energy by itself is not a silver bullet for 
energy supply, in the world or for the United States and we need all 
technologies to address the anticipated growth in demand for energy. 
Regardless of the steps the United States takes, nuclear energy is 
expected to continue to expand around the globe.
    We can continue down the same path that we have been on for the 
last 30 years or we can lead a transformation to a new, safer, and more 
secure approach to nuclear energy, an approach that brings the benefits 
of nuclear energy to the world while reducing vulnerabilities from 
proliferation and nuclear waste. We are in a much stronger position to 
shape the nuclear future if we are part of it and hence, GNEP. GNEP is 
a program that that looks at the energy challenges of today and 
tomorrow and envisions a safer and more secure future, encouraging 
cooperation between nations to permit peaceful expansion of nuclear 
technology while helping to address the challenges of energy supply, 
proliferation, and global climate change.
    Thank you. This concludes my formal statement. I would be pleased 
to answer any questions you may have at this time.

                    RECYCLING SPENT FUEL TECHNOLOGY

    Senator Domenici. Thank you very much, Mr. Secretary. 
That's a very succinct and understandable presentation.
    We're going to have to learn to use some words that I'm 
going to start with today and see if I can get them fixed in my 
own mind.
    Europe recycles or reprocesses now, do they not?
    Mr. Sell. That's correct.
    Senator Domenici. And they use a rather well known process 
called PUREX?
    Mr. Sell. They do.
    Senator Domenici. Tell me--or let me ask. That process--
we're going to go one step further, or one step better--if this 
program is adopted and carried out, because the PUREX process 
does not--separates out plutonium in a liquid form as it 
proceeds through its process. Is that correct?
    Mr. Sell. Yes, that is correct.
    Senator Domenici. Therefore, it is--go ahead and get some 
water--therefore, it has some proliferation problems that are 
pretty obvious, is that not correct?
    Mr. Sell. That's correct.
    Senator Domenici. Now, the President, in his proposal, has 
chosen to go to a next-technology, which is UREX+. And I think 
you've stated to us the difference, but let me just put it in 
the context of the difference between what's going in the world 
now and what we would be doing. In our process, as the--as it 
proceeded, what would come out when you run the spent fuel 
through would not be pure plutonium, it would never separate 
out. It would come out in a compound attached, and never be 
liquid and never be separate. Is that correct?
    Mr. Sell. That's correct.
    Senator Domenici. And then, that--what you get as a result 
of that is reused--is that correct?--and reburned, so that you 
make more energy and use up the energy that we were going to 
throw away when we were going to lock it up in Yucca Mountain?
    Mr. Sell. The product streams out of the UREX+ process 
produce uranium, they produce an actinide stream, which is 
plutonium bound with the other actinides, and then a fission 
product stream. The fission product stream would be disposed 
of. The actinides would be made into fuel that would be burned 
in the advanced burner reactor. And the uranium could be either 
re-enriched for use in a lightwater reactor, or it could be 
disposed of as low-level waste.
    Senator Domenici. Now, where are these processes, at this 
point? And what will the $250-plus-million that you're asking 
for from this committee be used for?
    Mr. Sell. The UREX+ technology has been demonstrated at a 
laboratory scale.
    Senator Domenici. Where?
    Mr. Sell. At Argonne National Lab.
    Senator Domenici. Right.
    Mr. Sell. And it is our intent--and we think it is 
important--to move to demonstrate that technology on an 
engineering scale. It is our hope, and it is our expectation, 
that--in order for an approach like GNEP to work, that these 
technologies need to be commercialized. But there is 
significant engineering and development work that needs to be 
done. And so, a great majority of the amount of money that we 
are requesting for fiscal year 2007 would be used to support 
the design work, the environmental work, and other development 
work that needs to be done to support a decision to construct a 
demonstration facility in 2008.
    And if I can go back, you mentioned PUREX. You know, PUREX 
was actually developed here in the United States----
    Senator Domenici. Correct.
    Mr. Sell [continuing]. As part of our weapons program, so 
that we could produce plutonium for use in nuclear weapons. And 
it was--we used it here in the United States on the commercial 
side, and it was in the mid-1970's that we decided, for 
proliferation reasons--and I think perhaps correctly, we 
decided that we should stop doing that. And we hoped, when we 
made that decision--when President Carter made that decision in 
1977, that the rest of the world would follow. But they did 
not. And the rest of the world has deployed PUREX on a 
commercial scale, resulting in 250 metric tons of plutonium 
that is now in commerce around the world today. And that 
presents, in our judgment, a significant generational 
proliferation concern. And we want to develop technologies that 
will stop the production of plutonium, and also technologies 
that can be used to burn down plutonium stockpiles, plutonium 
inventories, over the coming decades.
    Senator Domenici. Thank you for that explanation. That--I 
failed to mention, that is our technology. We did do it. We did 
use it. I mean, it was commercialized.
    I'm going to yield now to Senator Craig. And the vote's not 
yet up, incidentally.
    Senator Craig. Mr. Chairman, let me go for a few moments. 
But my guess is that we probably ought to get out of here in 5, 
hadn't we, if we're going to----
    Senator Domenici. Go to our meeting?
    Senator Craig [continuing]. Catch that vote?
    Senator Domenici. Yes. Is it up now, the vote?
    Senator Craig. The vote is on now.
    Senator Domenici. I'm very sorry. I didn't see it.
    Senator Craig. Yeah, the vote is----
    Senator Domenici. I guess we should.
    Senator Craig [continuing]. The vote is on now.
    Senator Domenici. Senator, why don't you proceed, and 
then--Senator Allard, do you want to go vote and come back?
    Senator Allard. Yeah, that's what my plan would be.
    Senator Domenici. Please do that.
    Senator Allard. We have two votes on, Mr. Chairman.
    Senator Domenici. All right. We'll just remind the 
Secretary to wait just a while, while we have two votes. He's 
going to come back and complete the meeting. I'm going to wait 
until the last minute here.

                DEPARTMENT'S GNEP TECHNOLOGY OBJECTIVES

    Senator Craig. Okay.
    Mr. Secretary, in GNEP, the initial phase that you're 
talking about, the engineering scale demonstration phase, 
proliferation-resistant spent-fuel processing, how long--you 
said construction by 2008. When do you think that plays out? 
And we're looking at a price tag for totality of that of 
upwards of----
    Mr. Sell. The--just for the UREX+ demonstration facility, 
we would anticipate--even though it would be sized somewhere 
probably in the 10 to 25 metric-ton-per-year size, so 
relatively small--but, on order, we would expect that 
facility--our best estimates on the costs would be between $700 
million and $1.5 billion. And we would hope to begin 
construction in 2008, and have construction complete 3 to 4 
years thereafter, to go into operations.
    Senator Craig. And then the next phase is what, the 
advanced fuel cycle?
    Mr. Sell. The next phase would be the--within 10 years, we 
would like to build a demonstration advanced burner reactor.
    Senator Craig. Burner reactor.
    Mr. Sell. There are a number of potential technologies that 
could be used for that. And we want to do a substantial amount 
of work in conjunction with our international partners, in 
determining the appropriate technology. But we would hope to 
build and--to construct and operate that within 10 years.
    The key R&D challenge--the biggest R&D challenge--we've 
done UREX+ in the lab. We've built, certainly, fast reactors 
that can be modified for a burner role. The biggest challenge 
is in developing and qualifying an actinide-based fuel. And so, 
that will require significant laboratory work to develop that 
fuel.
    As you know, today we are doing small-scale actinide fuel 
tests, in partnership with France, in their fast reactor, as 
well as in partnership with Japan. But that's going to require 
a significant amount of development work over the next 5 to 10 
years.
    Senator Craig. Then in this whole concept, the exportable 
modular reactor is the last phase--is that where the effort to 
contain--to offer up, but contain----
    Mr. Sell. Under Secretary Bob Joseph and I, we went to a 
number of capitals in the United Kingdom, France--we saw Dr. El 
Baradei in Vienna--Moscow, Beijing, and Tokyo, to talk about 
this idea. And the ideas were well received, and the objectives 
of GNEP were well received. But there was a tremendous amount 
of interest in not just those countries, but other counties--
South Korea and others, Canada perhaps--joining together with 
us in developing advanced reactors for deployment in the 
developing world.
    And so, that is something that we would seek to move, in 
parallel with these other technology development efforts. And 
it is something that we would hope to have significant 
international participation in, as well.
    Senator Craig. Okay. I suspect, Mr. Chairman, that we ought 
to----
    Senator Domenici. Could I just follow up on your very last 
one, and you wait on it?
    Senator Craig. Yes.
    Senator Domenici. The one thing that I keep hearing--and I 
want to stress it a little bit, in context of Larry's last 
question--we talk about the internationalization of this issue 
and the partnership. And I hope that as you talk about the 
costs for these various demonstrations and moving from a small 
one to the next level, that you are talking about the 
possibility, or even the probability, that we can get our 
partnership countries to come into that ball game, too, of 
helping develop those kinds of experimental projects. Because 
they will be costly. I'm not sitting up here saying I'm against 
things of this type because they're costly. I'm excited that 
America might be a considering a major new program of this 
type. This is what we used to be about; but we've gotten so 
fearful, we won't do anything like this. So, I'm on board. But 
it seems to me the benefits are not going to be just to us, 
right?
    Mr. Sell. That's correct. There is--when we think about it 
in the international context, I mean, on the first order, as I 
said earlier, we've--in some ways, we have yielded our 
leadership role in the fuel cycle. The French, the British, the 
Japanese, and the Russians have gone on without us for 30 
years. And they have significant capabilities--in some cases, 
that are better than ours.
    Senator Domenici. Right.
    Mr. Sell. And so, we are seeking to work in partnership 
with them to accelerate, to take advantage of the advances we 
have each made to accelerate the development, the 
demonstration, and the deployment of these technologies as 
quickly as possible. So, they bring talent and expertise to the 
table.
    But one of the other things that has been quite encouraging 
is that they also seek full partnership, which means in-kind 
contributions, and, we would expect, significant financial 
contributions. That is--we really seek to pursue these 
technologies in partnership. And that is, in addition to the 
benefits that I've laid out, we think it also has other 
significant benefits, in that it will allow us to accelerate, 
working in partnership with these other countries, the phase-
out of the current PUREX technologies that are used around the 
world today, and the phase-in of more advanced proliferation-
resistant recycling technologies.
    Senator Domenici. That's why I asked. It would seem to me 
that the benefits are for them, too.
    Mr. Sell. Indeed.
    Senator Domenici. Because the benefit to the world is that 
we would--we might all be engaged in the most nonproliferation-
active formulation of machinery, rather than what we've got 
now. And they ought to be beneficiaries, and we ought to help 
pay for it.
    Mr. Sell. Mr. Chairman, we really believe that, through 
these technological advancements, we can make it commercially 
attractive to recover the economic value of spent fuel. And 
once we can do that, then that allows a international fuel 
leasing regime to work.
    Senator Domenici. I'm going to just close by saying: When 
we talk about the dollar numbers, we have never talked about 
how much value added there is going to be in this process. That 
might be the subject matter of maybe your doing some research 
and submitting to us: If this works, what is all that extra 
energy that we're going to have for sale? What is its value 
going to be? Because it's going to be somewhere, isn't it?
    Mr. Sell. There will be a tremendous value of the 
electricity produced, and a tremendous savings by avoiding the 
cost of building nine Yucca Mountains over the course of the 
century. And, quite frankly, the engineering and the packaging 
required to dispose of hot spent fuel is much greater than 
that, that would be required to dispose of the more stable 
glacious waste form.
    Senator Domenici. We'd get a whole lot more fuel to burn.
    Mr. Sell. That's correct.
    Senator Domenici. That's got a value added that this 
process is going to yield, right?
    Mr. Sell. That's correct. And right now----
    Senator Domenici. That would be very, very large. Huge 
amount.
    Mr. Sell. It's a significant amount. And right now spent 
fuel that is headed towards Yucca Mountain still has over 90 
percent of its energy value. And by developing recycling 
technologies, we think we can recover a great portion of that 
energy value and produce electricity with it.
    Senator Domenici. We're going to be in recess. The 
Secretary's going to wait. Probably going to finish at 4 
o'clock, or a little after 4 o'clock, if that's all right with 
you. But I won't be coming back, Mr. Secretary. But the Senator 
from Colorado will preside.
    Thank you very much.
    Mr. Sell. Thank you.
    Senator Allard [presiding]. I'll call the committee to 
order. And, just for the record, I'm Senator Allard that's now 
presiding, at the request of the chairman, Senator Domenici. 
And I'd like to, again, welcome you, Mr. Secretary.
    We were starting into the question part of the committee. I 
left early to go down and vote, and have now returned to wrap 
up our deliberations here on the committee.

         GLOBAL NUCLEAR ENERGY PARTNERSHIP PROLIFERATION RISKS

    I've had an opportunity to go and tour facilities in 
France, as well as in England, and what they do to reprocess 
nuclear fuel, which you indicated in your own remarks is--that 
it is technology that we had here in the United States, and 
then they adopted that technology. And, frankly, I am excited 
about the prospects of moving to UREX+ instead of PUREX. They 
use the PUREX technology. Am I correct on that?
    Mr. Sell. That's correct.
    Senator Allard. And so, I'm excited about the UREX+ policy. 
And it's my understanding, also, I just want to make sure 
that's on the record--is that it does take away the 
proliferation risks completely if we process that, or is there 
still some proliferation risk?
    Mr. Sell. I think, from a public policy standpoint, Senator 
Allard, we must always be mindful of the proliferation risk 
anytime we are dealing with nuclear materials and nuclear 
technologies. And so, I would be reluctant to suggest that any 
technology removes all risk, but we----
    Senator Allard. But this lessens the risk, then, is that--
--
    Mr. Sell. But the----
    Senator Allard [continuing]. The plan?
    Mr. Sell [continuing]. UREX+ technology prevents--it 
increases, substantially, the proliferation resistance of the 
material, to a point where this Government should be quite 
comfortable. And we would also build in the most sophisticated 
safeguards technologies into the UREX+ plant. So, not only do 
we have a much more proliferation-resistant stream of material 
coming out, but it would have the most advanced safeguards, and 
all of these plants would only be built, under our conception, 
in existing fuel-cycle states. So, we think this offers 
substantial nonproliferation benefits.
    And there are two other nonproliferation benefits. By 
developing and deploying advanced burner reactors, and 
developing and deploying UREX+, we can begin to slow the 
accumulation worldwide of inventories of separated civilian 
plutonium, and we can build the capability that allows us to 
burn down and dispose of that plutonium. And then, thirdly, we 
can develop, we believe, an international regime, or we would 
seek to develop an international regime, that would discourage 
the investment and construction of enrichment and recycling 
facilities in countries that do not have them today.
    Senator Allard. Now----
    Mr. Sell. So, the----
    Senator Allard. Go ahead.
    Mr. Sell [continuing]. So, in sum, we think there are--from 
a systems standpoint, there are substantial nonproliferation 
benefits, and substantial nonproliferation enhancements, that 
would flow from the GNEP proposal.
    Senator Allard. And I understand that right now, under 
UREX+ technology, we are working with two other countries. And 
that's France and Japan. Is that correct?
    Mr. Sell. We have, through existing relationships that the 
United States has, we have been conducting tests and 
experiments and development work through funding provided by 
this committee. And we would seek to broaden the work to also 
include Russia, the United Kingdom, if they choose, Japan, and 
China. Those are the nations where well in excess--or around 70 
percent of the world's nuclear reactors exist. Those are the 
nuclear economies of a sufficient scale to justify significant 
investments in advanced fuel-cycle technologies, and we would 
look to work with those countries in developing these 
technologies on an accelerated timescale.

             INTERNATIONAL INTEREST IN ENRICHMENT SERVICES

    Senator Allard. Now, Iran is on everybody's mind, because 
they've decided to build and operate a uranium enrichment 
plant, in direct violation, actually, of the Nuclear 
Proliferation Treaty. And with this capability, they could not 
only produce fuel for civilian purposes, but also weapons 
activity, as well. And you have a plan that calls for a uranium 
fuel leasing plan that would provide fuel to countries 
interested in developing a civilian nuclear program.
    Do you believe that other countries--we've already kind 
of--sounds like you've already begun to kind of form a 
coalition, but do you believe that these countries would be 
willing to contract for enrichment services instead of 
developing their own domestic capabilities?
    Mr. Sell. We do, Senator Allard. And this is occurring now, 
on a smaller scale, around the globe. Many countries with 
significant nuclear power investments, like South Korea, have 
not made their own investments in enrichment and recycling. And 
the hope is--I mean, really, from a--from a world energy supply 
standpoint, and if we really want to address environmental 
concerns, pollution concerns with nuclear power, the world's 
going to need a significant expansion of nuclear power. And 
that's going to occur in many countries.
    And we think a system could work, where states that have 
already made, or have economies that would justify significant 
investments in enrichment and reprocessing technologies, that 
we could lease fuel. So, a country like the United States could 
lease fuel to a country. And that fuel would then--would be 
burned in a reactor, but then taken back to be recycled and 
disposed of in the fuel-cycle country. We think that can be 
offered on attractive--we would propose that we could offer 
that on attractive commercial terms. So, there's a real 
incentive for a country, who is only interested in bringing the 
benefits of nuclear power to their economy, of leasing the 
fuel. And only those countries that are really seeking to--we 
would suggest that countries that chose not to go the more 
economic route, and, instead, choose to make investments in 
their own enrichment or recycling--or reprocessing capability, 
it would suggest that perhaps they have other motivations.
    Senator Allard. And so, that's basically your plan. You're 
going to try and incentivize them with some economic 
alternatives. You hope that they'll not be able to refuse, 
because we would then have the original reprocessing plants 
constructed here. We'd do that them for them at a reasonable 
price, so that they'll use our facilities.
    Mr. Sell. And it wouldn't just be here. It would also be in 
France or Japan or China or elsewhere. And it's--that diversity 
of suppliers to potential consumer nations would also give them 
the security, which I think countries would seek, in having a 
diversity of enrichment services suppliers.
    Senator Allard. And have you gotten any firm commitments 
from any of the countries willing to come on with this program 
at this point? Or are you aware of real strong support for it? 
I'll put it that way.
    Mr. Sell. When--a few weeks ago, I, with Under Secretary 
Bob Joseph from the State Department, traveled to London and to 
Paris, to Moscow, Beijing, Tokyo, and we also stopped to see 
Dr. El Baradei at the International Atomic Energy Agency, in 
Vienna. And we laid out our ideas and sought their 
consultation. And there was broad agreement on the objectives 
that the world needed a dramatic increase in nuclear power, 
that we should work together to develop advanced recycling 
technologies that did not separate plutonium, that we should do 
this in international partnership, and that we should work to 
facilitate an international regime of fuel leasing so that we 
could discourage the proliferation of enrichment and 
reprocessing technologies.
    There was broad agreement on all of those issues, and a 
great interest expressed by those governments in continuing to 
discuss with us how we could further the partnership.

     NATIONAL NUCLEAR SECURITY ADMINISTRATION AND STATE DEPARTMENT 
                         PARTICIPATION IN GNEP

    Senator Allard. Now, the GNEP program is a very 
comprehensive research and development program that includes 
work on advanced reactor technology, fuel recycling, waste 
reduction, and global nuclear fuel services, small reactors, 
and enhanced nuclear safeguards. And when we look at the 
budget, it seems to focus on large-scale engineering 
demonstrations of fuel recycling capability, with minimal 
involvement outside the Office of Nuclear Energy. And it's 
unclear, at least to me, from this budget, when the Department 
will undertake research, reliable fuel services, small-scale 
reactors, the enhanced nuclear safeguards, and basic research 
and development that could address a number of concerns related 
to our national security, particularly in the earlier phases of 
the program.
    My question is: Why has the Department elected to minimize 
the direct and immediate engagement of the NNSA and the 
Department of State at the onset of GNEP?
    Mr. Sell. With the greatest level of respect, Senator 
Allard, I have to disagree with the premise of your question. 
The National Nuclear Security Administration has been heavily 
involved, as has the State Department, as have other elements 
of the interagency policy formulating bureaus within the 
administration.
    So, they have been involved. I think we have their--I know 
for a fact we have their strong support in moving forward on 
this.
    There is an emphasis, in our budget request for 2007, on 
moving forward on the first key demonstration facility, which 
is the demonstration of the UREX+. That has been demonstrated 
at a laboratory scale. We think it is important, as quickly as 
possible, to demonstrate it on an engineering scale. And so, 
that does receive a significant portion of our--of the $250 
million budget request for fiscal year 2007.

                MIXED OXIDE (MOX) PROGRAM COST INCREASE

    Senator Allard. I'd like to move on to the MOX Program. 
When I was chairman of the Strategic Subcommittee on Armed 
Services, we had some discussion with the MOX Program, where we 
have the recycling facilities at Savannah, Georgia. And, you 
know, it's--like was mentioned earlier, it's basically American 
technology that's been modified some, perhaps, by both the 
French and the Germans. But it's basically--was originally 
American technology.
    I'm concerned about some reported overruns on the efforts 
down there. The IG did a report that said that cost increases 
may amount to $3.5 billion, where we were planning on $1 
billion in the budget. Can you address that?
    It seems to me we need to have somebody riding herd a 
little closer over the operation down there, and I'm wondering 
if perhaps maybe you could give us some insight on what's 
happening with the MOX facility in Savannah, Georgia.
    Mr. Sell. Several years ago, after our country had made the 
agreement with the Russians to dispose of plutonium, we did 
make a decision to build facilities, MOX fuel fabrication 
facilities, as well as other processing facilities, at the 
Savannah River site. And, early on, it was suggested, at the 
time, that the cost of those facilities would be, in total, 
of--I may not have the numbers exactly right, but, on rough 
order, $2 billion.
    That was not a very good number, obviously. And it is old. 
Commodity prices have increased significantly since that 
estimate was made. There was a failure by the Department and 
its contractor team to fully appreciate the costs that would be 
required to build that French MOX technology here in the United 
States. And there were other problems with the estimate. The 
Department is working to correct those.
    I take seriously your counsel to keep a tighter rein on 
activities down there. But the plutonium disposition program 
remains an important U.S. objective, and we intend to move 
forward and accomplish that in as economically feasible a way 
as possible.
    Senator Allard. Well, I do--I think that is very important. 
And, you know, you indicated cost of commodities was one of the 
factors. What other factors did we have that might have added 
to the cost of it?
    And the rest of this question is: Did we have incentive-
driven--did we have incentive-driven contracts with the 
contractor down there?
    Mr. Sell. We--if I may, I would like to give a more 
complete answer on exactly what--the contract provisions that 
we have. I believe, as a general statement, that the contract 
does have significant incentives in it for contractor 
performance, but I would like to answer--give you a more 
complete answer on the record, if I may.

                    U.S. MIXED OXIDE FACILITY COSTS

    Senator Allard. Yeah, that would be fine.
    Mr. Sell. The other elements of the cost growth--and I--you 
know, part of it was commodity--the increased price of 
commodities. Part of it was simply that the $2 billion number 
was a 2000-year number, not a 2005 number. And there was also a 
failure, quite frankly, of the Department and our contractors 
to fully appreciate how costly it would be to build the French 
technology plant here in the United States. We made assumptions 
that we shouldn't have made, and those are costing us now.
    Senator Allard. What specific assumptions--how did you--I 
mean, where were you wrong in your assumptions? I'm going to 
press you a little bit here.
    Mr. Sell. I will--I can't--you know, unfortunately, I'm not 
prepared, today--or I don't have my mind today, Senator Allard, 
the exact things that we missed on this, but----
    Senator Allard. Maybe you could get a memo to the committee 
on that, and we'll----
    Mr. Sell [continuing]. But we will----
    Senator Allard. Yeah.
    Mr. Sell [continuing]. Follow up, in written detail, on 
that issue, if I may do that.
    [The information follows:]
                    U.S. Mixed Oxide Facility Costs
    The total project cost estimate for the U.S. MOX facility as 
reflected in the fiscal year 2007 budget request is $3.6 billion. 
However, the cost estimate and schedule will be formally validated 
prior to the start of construction as part of the Department's project 
management process, and reported to Congress. The reasons for the cost 
increase are: the 2\1/2\ year delay in the negotiation of the liability 
agreement with Russia resulting in the extension of the MOX 
construction schedule, further extension of the construction schedule 
to conform to the expectation of level funding in the outyears, 
unanticipated complexities in adapting French MOX technology to use 
weapon-grade plutonium, increases in the cost of construction materials 
since the original estimate was made, and the incorporation of more 
stringent regulatory and security requirements into the design of the 
facility. With regard to incentive driven contracts, DOE is negotiating 
multi-tiered performance incentives for the construction and operations 
phases of the MOX Project, which will contain a fee structure to 
control cost growth and schedule slippage.

    Senator Allard. Yeah. We'd appreciate that so that we fully 
understand the issues down there.
    And I'm one that would like to see these things carried in 
a timely manner, because I think when you start running into 
delay problems and accelerated costs, you tend to lose support 
within the Congress. And this is an important program, and I 
hate to lose that support. I----
    Mr. Sell. The----
    Senator Allard. Go ahead.
    Mr. Sell. The delays--you know, even though this--the 
agreement was made to do this many years. It has taken a number 
of years, and--to get the appropriate agreements in place with 
the Russians. And when Secretary Bodman got to the Department, 
about a year ago, and realized that we still did not have the 
agreements that we'd been trying to get with the Russians that 
would allow this project to move forward, he and Secretary Rice 
engaged the Russians, and we were able to make significant 
progress on resolving issues as to liability which had 
prevented--which had really left this project in a stall for 
several years. So, we feel like we have finally made progress 
on that. The Department broke ground, finally, on the facility 
last fall. And we look forward to moving forward with it. But 
it, unfortunately, will be at a higher cost.

                          TRANSPORTATION FUELS

    Senator Allard. Let me move on to our transportation fuels. 
I think we're all quite aware that the transportation sector is 
a huge consumer of energy in this country. And there's some 
concern about the high-temperature reactors that are effective 
in producing hydrogen for transportation. And where are we in 
the efforts by the Department to produce these kind of reactors 
that will allow for the production of hydrogen? Or is it just 
assuming that we're not far along on nuclear hydrogen research 
to--at this point in time, to be funding it? You have dropped--
reduced your 2006 funding levels, and that's what's prompting 
this question.
    Mr. Sell. It is our judgment at the Department that over 
the long term the President's Hydrogen Fuel Initiative that he 
laid out in the--in his State of the Union of 3 years ago, 
offers significant promise for getting our transportation 
sector off of the internal combustion engine and onto 
electricity-based fuel cells. And we are--we have a broad 
program to develop those technologies, the storage 
technologies, the fuel-cell technologies, the automotive 
technologies, as well as the question of: How will we produce 
all of this hydrogen?
    Today, the only economical way to produce hydrogen, or the 
principal economic way of producing it, is through reforming 
natural gas. But we think, in the future, as hydrogen demands 
increase significantly, we can produce it with coal, and we can 
also--and other technologies--and we think hydrogen will be--I 
mean, nuclear hydrogen will be a--nuclear power plants will be 
a significant technology producing hydrogen.
    It is our judgment, I believe--and I will leave my 
statement to be revised by the technical experts--that the most 
promising nuclear technology for producing hydrogen is very 
high-temperature gas reactor. And a technology such as that, I 
believe, was authorized in the Energy Policy Act of 2005. It's 
referred to as the next-generation nuclear plant. And we have 
requested $23 million as part of our fiscal year 2007 budget to 
continue developing that reactor so that it can be 
demonstrated--built and demonstrated on a timescale consistent 
with that called for by the Energy Policy Act.
    We think that technology can still be developed, and is 
moving along consistently with other portions of the Hydrogen 
Fuel Initiative.
    Senator Allard. Well, why was there a reduction in your 
funding level for 2006?
    Mr. Sell. If I may, I--that's another question I'll need 
to----
    Senator Allard. Okay.
    Mr. Sell [continuing]. Take for the record.
    Senator Allard. Very good.
    [The information follows:]

                          Transportation Fuels

    With an appropriation of $40 million in fiscal year 2006 and a 
$23.4 million budget request in fiscal year 2007, the Department has 
the level of funding needed to continue the progress necessary to 
inform a decision in 2011 on whether to proceed with construction of 
the NGNP. With these funds, the Department will continue the graphite 
particle fuels development effort, which is the critical path work for 
determining the feasibility of the technology for efficient electricity 
and hydrogen production. Sample fuel irradiation testing would begin in 
fiscal year 2007 as well as preparation for post-irradiation 
examination of the fuel.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. I don't have any other questions. I have 
another committee meeting I've got to get to. And so, I'm going 
to request that the record remain open until close of business 
Friday for member statements and questions. And I also hope the 
Department will respond to these questions that are left open 
in a timely manner. Most committees I've been a part of have 
asked a response within 10 days. Is that about the time period 
that--if you can get your responses back to us within 10 days, 
we'd appreciate it----
    Mr. Sell. We will do so.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

    GLOBAL NUCLEAR ENERGY PARTNERSHIP (GNEP) PROLIFERATION CONTROLS

    Question. The cornerstone of the GNEP is the development of a 
proliferation resistant fuel recycling plan that will reduce the amount 
of spent fuel that must be disposed of and recycle the uranium used in 
existing reactors.
    Please explain to the committee what advantages this proposal has 
over existing fuel recycling programs and what steps the Department is 
taking to guard against the proliferation of separated plutonium.
    Answer. Under study for the past 5 years, the Department believes 
that the Uranium Extraction Plus (UREX+) technology is the best known 
and proven. It provides for the group separation of transuranic 
elements (which include plutonium) contained in spent nuclear fuel and, 
therefore, would not result in a separated pure plutonium stream as is 
the case with current reprocessing technology. To impede diversion of 
material, this technology would use state-of-the-art safeguards 
approaches and advanced instrumentation to account for all the material 
used in the process. Incorporated early in the design, the combination 
of safeguards and the separation process ensures that material could 
not be easily diverted without being identified. Finally, an integrated 
set of fuel cycle facilities which include UREX+ would have the 
capability to manufacture fast reactor fuel and use an advanced burner 
reactor for permanent destruction of civilian inventories of pure 
plutonium. By demonstrating and deploying new technologies to recycle 
nuclear fuel, we would minimize waste, and improve our ability to keep 
nuclear technologies and materials out of the hands of terrorists.

                         GNEP--BUDGET SPECIFICS

    Question. The GNEP program builds on the existing Advanced Fuel 
Cycle Initiative and provides $250 million in funding to initiate the 
research and development and to demonstrate the UREX Plus process, an 
advanced burner reactor, and an advanced fuel facility. This effort 
will not be easy and will require the support of our best scientific 
minds at all our national labs. However, this budget is not specific as 
to what activities will be funded and where this research will occur.
    When will we know more about the specifics of the program?
    Answer. The Spent Nuclear Fuel Recycling Program Plan is being 
provided to Congress by the end of May 2006 in response to fiscal year 
2006 EWD Conference Report language and will provide additional 
specifics on the GNEP program. The report focuses on the plans for 
demonstration of the advanced recycling technologies on a scale 
sufficient to evaluate commercialization of the technologies.
    Question. Will you be developing an R&D roadmap and develop a 
division of labor among the labs?
    Answer. The Department has conducted an extensive amount of R&D 
under the Advanced Fuel Cycle Initiative program over the last several 
years to bring advanced technologies for enhancing the efficiency of 
the fuel cycle to a state of readiness for the engineering-scale 
demonstration. As previously discussed, the Department is currently 
preparing the Spent Nuclear Fuel Recycling Program Plan that will 
provide additional information. While Idaho National Laboratory is the 
lead laboratory for the GNEP Technology Demonstration Program, the 
participation by and capabilities of all of DOE's national laboratories 
are critical to the program's success. Nine national laboratories--
Idaho, Argonne, Brookhaven, Lawrence Livermore, Los Alamos, Oak Ridge, 
Pacific Northwest, Savannah River and Sandia--have provided input into 
the Department's development of and vision for GNEP. These nine 
national laboratories are also currently involved in the preparation of 
work scope and funding requirements.
    Question. I understand you will use funding provided in fiscal year 
2006 to begin work on an Environmental Impact Statement for each of the 
three main facilities--where will they be located?
    Answer. The Department has made no decisions with respect to 
locations for the engineering scale demonstrations of the advanced 
recycling technologies. The Department's fiscal year 2006 appropriation 
provided funding to initiate an Environmental Impact Statement (EIS) on 
recycling spent nuclear fuel. In March 2006, the Department initiated 
the National Environmental Policy Act (NEPA) activities with the 
issuance of an Advance Notice of Intent to prepare an EIS. The NEPA 
analyses will inform a decision in fiscal year 2008 as to where the 
integrated recycling demonstration facilities would be located.
    Question. How much will the GNEP program cost to implement and over 
what period of time?
    Answer. A preliminary, order-of-magnitude cost estimate for the 
GNEP initiative ranges from $20 billion to $40 billion. This includes 
the cost of Nuclear Power 2010 and Yucca Mountain over the next 10 
years as well as the cost of demonstrating integrated recycling 
technologies. Previously reported estimates for the cost of bringing 
the three technology demonstration facilities to initial operation 
range from $3 billion to $6 billion over the next 10 years. In 2008, 
the Department will have more refined estimates of the cost and 
schedule to complete the full 20-year demonstration effort. One of the 
primary purposes of the engineering scale technology demonstrations is 
to produce reliable estimates of the total life cycle cost of GNEP.

                        UREX+ RECYCLING PROCESS

    Question. I traveled to France in December and received an update 
on the French spent nuclear fuel recycling program that is built on the 
U.S. developed ``PUREX'' process. The French separate Uranium which 
forms 95 percent of the volume of spent fuel. They also separate 
Plutonium which they recycle in a Mixed Oxide fuel that produces 
additional energy in their fleet of existing Light Water Reactors. I 
understand that although the volume of waste has been significantly 
reduced, the heat load would continue to drive the loading of a final 
repository. The Global Nuclear Energy Partnership initiative proposes 
additional research and development of a ``Uranium Extraction plus 
(UREX+)'' process to address the limitations of the PUREX process.
    How would the UREX+ process address the limitations and provide a 
cost-effective, proliferation resistant alternative?
    Answer. The transuranic product from the UREX+ process is more 
proliferation resistant than the product from current separations 
plants because there is no separated pure plutonium stream. The 
transuranic product provides a significantly higher radiation field 
than purified plutonium, and the TRU mixture is less attractive for 
diversion than pure plutonium.
    A modern commercial UREX+ and fuel fabrication capability would be 
equipped with state-of-the-art monitoring and accountability systems 
specifically designed to prevent unauthorized access and diversion of 
materials. One of the advantages of an engineering scale demonstration 
of the UREX+ technology is the ability to demonstrate these monitoring 
and accountability systems.
    Question. What are the milestones and costs associates with this 
research and development? What are the critical decision points?
    Answer. The milestones and costs for various research and 
demonstration steps, including spent fuel separations process, are 
currently being developed. The Department's current efforts are aimed 
at conducting the applied research, engineering, and environmental 
studies that would be needed to inform a decision in 2008 on whether to 
proceed with detailed design and construction of the engineering scale 
demonstration facilities. The Department has set a goal of facility 
start-up between 2011 and 2015. A more detailed baseline cost and 
schedule are being developed as the project moves forward.

                       UREX CONSTRUCTION OPTIONS

    Question. We notice that most of the UREX facility dollars in 2006 
and 2007 ($200 million) will be spent on ``conceptual'' designs, EIS 
studies, procurement orders, and other ``paperwork'' similar to that 
involved with constructing large-scale integrated nuclear facilities.
    Are there any ``medium'' scale options available that could employ 
existing processing lab capabilities that could be utilized to free up 
funds for the other critical elements of the program? If not, how do 
you assure that the EIS process does not have to be repeated over and 
over for each component of the emerging fuel cycle?
    Answer. The Department is looking at conducting additional 
laboratory research at increased throughput quantities in fiscal year 
2007 in parallel with the conceptual design activities for the 
engineering-scale facility.
    The EIS process will consider all reasonable alternative 
technologies and locations for three key elements of the GNEP 
Technology Demonstration Program: (1) demonstration of advanced spent 
fuel separations processes; (2) demonstration of a conversion of 
transuranics; and (3) demonstration of an advanced fuel cycle facility 
and advanced fuel fabrication.

                 IRAN--PURSUIT OF A COMPLETE FUEL CYCLE

    Question. Iran has decided to build and operate a uranium 
enrichment plant in direct violation of Nuclear Non-Proliferation 
Treaty. Obviously, with this capability Iran could not only produce 
fuel for civilian purposes, but weapons activity as well. Your plan 
calls for a uranium fuel-leasing plan that would provide fuel to 
countries interested in developing a civilian nuclear program.
    Do you believe countries would be willing to contract for 
enrichment services instead of developing their own domestic 
capability? How has this plan been received by other countries?
    Answer. Today there are countries that rely on contracted 
enrichment services rather than developing their own domestic 
capability. Long-term contracts and enrichment facilities in over a 
half dozen countries provide alternative sources of supply. The United 
States itself contracts over half of its annual fuel services from 
Russia through the U.S./Russia HEU Purchase Agreement.
    We recognize that some countries will be mindful of supply security 
under the GNEP approach. The United States has already committed 17 
metric tons of HEU that will be blended down to LEU and used to 
establish a fuel reserve to back-up supply assurances. Russia has 
indicated support for such an approach. We are approaching other 
countries to establish interim supply arrangements to increase the 
confidence that critical energy supply would not be subject to near-
term political tensions.
    Question. What is the Department's plan to bring our international 
allies on board with the Global Nuclear Energy Partnership (GNEP)?
    Answer. The United States has been meeting with potential 
international partners to discuss both policy and technical aspects of 
GNEP. We will continue our diplomatic and technical outreach with a 
broader group of prospective partners.
    Question. What international commitments has the department 
obtained regarding GNEP?
    Answer. The United States completed initial consultations with fuel 
cycle countries and the International Atomic Energy Agency on the key 
objectives of GNEP. From a technical perspective, France, Japan and 
Russia have expressed strong interest in cooperative R&D.

                         GNEP--NONPROLIFERATION

    Question. The GNEP program is a comprehensive R&D program that 
includes work on advanced reactor technology, fuel recycling, waste 
reduction, a global nuclear fuel service, small reactors, and enhanced 
nuclear safeguards. However, the budget request focuses on large-scale 
engineering demonstrations of fuel recycling capability, with minimal 
involvement outside the Office of Nuclear Energy. It is unclear from 
this budget when the Department will undertake research reliable fuel 
services, small scale reactors, enhanced nuclear safeguards and basic 
R&D that could address a number of concerns related to our national 
security in the early phases of the program.
    Why has the Department elected to minimize the direct and immediate 
engagement of the NNSA and the Department of State at the onset of 
GNEP?
    Answer. Senator, as the principal official within the Department 
with responsibilities for advancing GNEP, I know that all appropriate 
elements of the Department were fully engaged during GNEP planning. In 
particular, Ambassador Brooks and the National Nuclear Security 
Administration (NNSA) staff played an integral role in the development 
of GNEP, in participation of addressing non-proliferation and the 
development of an advanced generation of safeguards technologies. This 
role will continue in the future.
    The Department of State has also been engaged from the beginning of 
GNEP planning and involved in all aspects of developing our 
international partnership. As you may be aware, prior to the 
President's announcement of the Advanced Energy Initiative and GNEP, 
Under Secretary of State Robert Joseph and I led a delegation to 
several foreign capitals to present GNEP. This is but one example of 
our close cooperation with the Department of State in both the 
development of GNEP and corresponding diplomatic strategy. I can assure 
you that the Departments of Energy and State continue to be engaged in 
coordination of our activities to advance GNEP.

                        ADVANCED BURNER REACTORS

    Question. The United States and the world have past experience with 
fast reactors that have led to questions about cost of operations and 
the potential proliferation threat. What will be the focus of advanced 
burner reactors and how will it address past concerns?
    Answer. The focus of the advanced burner test reactor will be to 
demonstrate the capability of destroying transuranic elements (which 
include plutonium) with repeated recycle. The advanced burner test 
reactor will incorporate the very latest in safety and security 
features.

                              MOX PROGRAM

    Question. Mr. Secretary, I am very concerned about the MOX program. 
This nonproliferation initiative uses the existing French recycling 
technology to fabricate nuclear fuel using a mixture of weapons grade 
plutonium (5 percent) and uranium (95 percent) to be burned in a 
civilian reactor. This program, when fully realized will destroy 68 
tons of plutonium in the U.S. and Russian stockpiles. Can you please 
update the committee on the status of this program and the status of 
the liability agreement with Russia?
    Answer. The Department of Energy has made significant progress in 
implementing the plutonium disposition program in the past year. The 
United States and Russia successfully completed negotiations of a 
liability protocol for the plutonium disposition program last summer. 
The protocol is currently under final review within the Russian 
Government. Senior officials from the Russian Ministry of Foreign 
Affairs and the Russian Atomic Energy Agency have assured us that there 
are no substantive issues with the agreed language and that it will be 
signed in the near future. In addition, the Department received 
authorization to begin construction of the MOX facility from the 
Nuclear Regulatory Commission, began irradiation of MOX fuel lead 
assemblies in a nuclear reactor, and began site preparation work at the 
Savannah River Site. Current plans call for construction of the U.S. 
MOX facility to start in 2006. To support this effort, the Department 
has been working on validating the U.S. MOX project cost and schedule 
baseline as part of our project management process and will have a 
validated baseline in place by the end of this year consistent with the 
requirements in the Defense Authorization Act for Fiscal Year 2006.

                       RISK INSURANCE--EPACT 2005

    Question. The Energy Policy Act (EPACT) of 2005 authorized the 
Department to establish a risk insurance program that would compensate 
utilities if the Nuclear Regulatory Commission fails to comply with 
specific schedules or reviews or if litigation delays full operations. 
The Department has provided just $2 million to support the 
establishment of the program regulations.
    What is the timing of standby support program? When will the 
regulations be finalized and the program become operational?
    Answer. The Department is developing a rule for implementing the 
standby support or Federal risk insurance provisions of EPACT. The 
rulemaking is scheduled to be completed by August 2006 in accordance 
with the requirements of EPACT. The Department issued the interim final 
rule on May 8, 2006.

                    GLOBAL RISK LIABILITY PROTECTION

    Question. Part of the GNEP plan is a global nuclear solution and 
international collaboration on new advanced reactors. The 
administration has negotiated the Convention on Supplemental 
Compensation for Nuclear Damages in 1997 and submitted it to the Senate 
in 2002. This program is an international liability standard similar to 
Price Anderson. The Senate Foreign Relations Committee held hearings in 
2005, but no action has been taken. I am told that most U.S. nuclear 
companies are very reluctant to embark upon foreign work without such a 
liability agreement in place.
    Has the administration considered the impact that a lack of an 
international regime on nuclear liability will have on their 
international nuclear initiatives, such as GNEP?
    Answer. Nuclear liability comes up as an issue in connection with 
almost every nuclear project outside the United States--whether it is a 
commercial project in which a U.S. nuclear supplier wants to 
participate or a DOE activity undertaken by a contractor. The United 
States has sought since the early 1990's to address these concerns in a 
comprehensive manner through the establishment of a global nuclear 
liability regime that includes the United States. These efforts 
culminated in the adoption of the Convention on Supplementary 
Compensation for Nuclear Damage (CSC) in 1997 at a Diplomatic 
Conference under the auspices of the International Atomic Energy Agency 
(IAEA). The United States was the chief proponent of the CSC since it 
is designed to address U.S. concerns over nuclear liability in a manner 
that will not require the United States to make any substantive change 
in our domestic nuclear liability law (the Price-Anderson Act). 
Bringing the CSC into effect will establish a well-defined legal 
framework for dealing with nuclear liability issues in a manner that 
facilitates participation by U.S. firms in nuclear projects (including 
those associated with GNEP) and, in the unlikely event of a nuclear 
incident, provides for assured, prompt and meaningful compensation with 
a minimum of litigation.
    The administration strongly supports ratification of the CSC by the 
United States and other countries as soon as possible. The 
administration has submitted the CSC to the Senate for advice and 
consent and has indicated that favorable action early this year is a 
high priority. The administration also has been working with the IAEA 
to promote ratification of the CSC by other countries. In particular, 
the Department represents the United States on INLEX, the IAEA's group 
of nuclear experts, whose mission includes promoting broad adherence to 
the CSC. In addition, the Department participated last November in an 
IAEA forum in Australia to promote ratification of the UCS by Pacific 
Island and Asian countries and will participate in a similar forum for 
Latin American countries later this year.

                         UNIVERSITY R&D PROGRAM

    Question. This budget proposes to eliminate the funding for 
University programs to support nuclear education and encourage students 
to focus on nuclear related disciplines which have civilian and defense 
capabilities. You might be interested to know that the Nuclear 
Regulatory Commission, following authorization of EPACT, did include 
funding in its budget to develop an academic capability needed to 
perform oversight responsibilities.
    Why do you believe there is a policy disconnect between the NRC and 
the DOE when it comes to supporting nuclear education?
    Answer. We do not believe there is a policy disconnect between NRC 
and DOE. The NRC's support to universities is for the purpose of 
attracting engineering students to the NRC for employment 
opportunities. The DOE objective was to address the issue of declining 
student enrollments in, and closure of, university programs during the 
1980's and 1990's. Over the last few years, there has been a 
significant increase in student enrollments in nuclear engineering 
programs, achieving the Department's goal of enrollments of 1,500 
students. During the same time, the number of nuclear engineering 
programs in the United States has increased as well. We believe that a 
strong nuclear engineering education infrastructure is in place and 
that the efforts of the universities and industry as well as continued 
demand for nuclear engineers will sustain enrollments and nuclear 
engineering programs.
    While the Department of Energy has not requested specific funding 
for the University Reactor Infrastructure and Education Support 
Program, we will continue to fund research at nuclear engineering 
schools through our directed research programs and awarded through the 
Nuclear Energy Research Initiative. In May 2006, the Department 
anticipates issuing a solicitation to universities requesting proposals 
for participation in the Office of Nuclear Energy's research and 
development. In addition, we anticipate continuing fellowships to 
graduate students pursuing advanced degrees in transmutation and other 
highly specialized fields associated with the fuel cycle.

                 NUCLEAR POWER FOR TRANSPORTATION FUELS

    Question. GNEP is focused on enabling nuclear power for electricity 
generation. However the transportation sector is the largest consumer 
of energy in the country. With GNEP's emphasis on fuel recycling and 
fast-neutron burner reactor development, I am concerned support for 
high temperature reactors that are effective in producing hydrogen for 
transportation will be overlooked or forgotten entirely. For example 
funding for nuclear hydrogen research has been reduced from fiscal year 
2006 levels.
    How do we ensure that we don't abandon the research needed to 
produce transportation fuels with nuclear energy and support a balanced 
approach to solving our dependence on foreign oil?
    Answer. The Department has not abandoned research needed to produce 
transportation fuels with nuclear energy. Authorized by the Energy 
Policy Act of 2005, the Next Generation Nuclear Plant program is on 
track to meet the 2011 date to select a technology best suited to apply 
heat and/or electricity to produce hydrogen at a cost competitive with 
other transportation fuels.

                            GNEP REGULATION

    Question. I understand the DOE plans to ``self-regulate'' the 
facilities that will be developed to conduct research and development. 
Ultimately a commercial-scale facility will be developed, assuming the 
research is proven, and the NRC will need to perform the ultimate 
licensing of such a facility.
    As you may know, the NRC has not requested any funding to support 
the GNEP program--has an agreement been reached with the NRC that 
defines their involvement?
    Answer. DOE would conduct the GNEP technology demonstration program 
under authority granted by the Atomic Energy Act. However, DOE would 
propose to engage the Nuclear Regulatory Commission (NRC) throughout 
the technology demonstration phase to ensure that the technologies are 
licensable by NRC when they are deployed commercially.

                         YUCCA MOUNTAIN OPTIONS

    Question. Because of the large volume of spent nuclear fuel already 
produced and the large infrastructure of treatment facilities and 
burner reactors needed to deal with it, the GNEP program will take 
several decades to have any impact on our high level waste problem. 
There are a variety of opinions on Yucca arguing for delay in licensing 
Yucca Mountain, even though a repository for high level waste will be 
needed with or without GNEP. Others say that Yucca Mountain is needed 
right away for Navy fuels and to dispose of high level waste now stored 
at many DOE facilities from our cold war weapons program. Still others 
say that GNEP may fail and so the United States must actively pursue 
Yucca Mountain for spent nuclear fuel to ensure that we do not 
foreclose that disposal option.
    What is your view on this and the approach we should take with 
Yucca Mountain?
    Answer. The country needs Yucca Mountain under any fuel cycle 
scenario and this administration is committed to the successful 
licensing and operation of the site. Even with a fully successful GNEP 
development and implementation, the residues from the recycling process 
will still need geologic disposal. In addition, approximately 13,000 
metric tons of Department of Energy (DOE) vitrified high-level waste 
and DOE spent nuclear fuel could not be recycled and still requires a 
repository. Moreover, the applicability of GNEP technologies for 
commercial spent fuel over 15 years old is still uncertain. The 
government has the obligation to take and dispose of the Nation's 
waste, and our mission is to provide permanent geologic disposal under 
the Nuclear Waste Policy Act of 1982. We need to start fulfilling that 
responsibility now with respect to the 50,000 metric tons of commercial 
spent fuel already generated and the additional 2,000 metric tons being 
generated annually.
    While the potential waste minimization benefits of GNEP on Yucca 
Mountain would be profoundly positive, any changes to the operation of 
the Yucca Mountain repository would occur only after GNEP technologies 
have been adequately demonstrated. Today, there will be no changes in 
the license application under development and we will proceed with our 
current plan for the existing waste inventory as well as the waste 
being generated.

                          LEGISLATIVE REFORMS

    Question. The administration is preparing a package of legislative 
reforms modifying the authorization for Yucca Mountain. Among the many 
modifications, the proposal seeks to stage the emplacement of spent 
fuel to allow it to cool.
    How will this strategy impact long-term storage and how will it be 
coordinated with the GNEP recycling efforts?
    Answer. Repository designs have consistently included aging 
capability needed to allow the spent fuel received from the utility 
sites to cool until it is suitable for permanent underground disposal. 
These aging facilities are an integral part of our disposal operations. 
Although GNEP offers the promise for a more efficient fuel cycle in the 
future because it generates a lower volume of waste, there are no 
current plans to store existing spent fuel for the possibility of 
recycling it in the future.
    Question. Can you please explain why the Department has decided to 
make these modifications to the Yucca Mountain project now and what 
impact this will have on schedule and budget estimates?
    Answer. Since the Department had always intended to have spent fuel 
aging capability deployed at the repository, the availability of early 
spent fuel aging facilities would not impact current repository 
planning. Cost and schedule development is currently underway for the 
clean-canistered approach to repository waste receipt announced last 
October, and will be available later this year.

                            WASTE CONUNDRUM

    Question. As you are probably aware the construction of 19 new 
reactor projects are under discussion and this will add to the existing 
large volume of waste waiting final disposal. By 2010, the amount of 
spent fuel stored at reactor sites across the country will exceed the 
statutory limit of 70,000 tons of spent fuel that can be placed in 
Yucca Mountain. If the NRC agrees to extend the license of all existing 
reactors this will generate up to 120,000 tons of spent fuel, which is 
the ``technical'' capacity of the mountain. This doesn't begin to 
address spent fuel generated from new reactors.
    If we do not address the large growing volume of spent fuel through 
a waste reduction strategy proposed through GNEP, how will we deal with 
all the spent fuel?
    Answer. If the volume reduction benefits of GNEP are not realized, 
it will be necessary for the Department to develop additional 
repositories to deal with all the spent fuel that is expected to be 
generated by the current fleet of reactors as well as the additional 
new reactors currently being considered. Removing the statutory limit 
of 70,000 metric tons currently imposed on disposal at Yucca Mountain 
will temporarily delay the need for the next repository. The 
combination of waste minimization and removing the 70,000 metric ton 
limit could delay the need for another repository until the next 
century.

                            INTERIM STORAGE

    Question. Some have proposed that we move our spent fuel to a 
central interim location, or locations, until it can be processed in a 
recycle facility. Others fear that once moved, the fuel will remain 
there forever, especially if recycling proves to be technically 
impossible or commercially unviable.
    What assurances could be provided to a host community for temporary 
storage that it won't be stuck with the fuel from a hundred reactors 
forever?
    Answer. The Department has made no decisions regarding the timing 
for receiving spent fuel for recycling, or the locations at a recycling 
site where the spent fuel would be recycled. It is anticipated that the 
approach to receiving spent fuel will be examined as part of the 
project definition and conceptual design phase that will occur over the 
next 2 years.
    Question. In the fiscal year 2006 Conference Report Congress 
directed the Department to develop an interim storage plan and provide 
grant funding to communities interested in locating such a facility in 
their area. There are communities in my State that are very eager to 
work with the Department and to initiate the siting process. When will 
the Department complete its plan for the interim storage facilities and 
when do you expect to release the funds to interested communities? What 
direction will you give these communities on the expenditure of these 
funds?
    Answer. The fiscal year 2006 Conference Report directed the 
Department to address the development of an integrated spent fuel 
recycling facilities. The Department received over 30 responses from 
public and private sector interests in response to a Request for 
Expressions of Interest issued in March 2006 for hosting advanced 
recycling facility demonstrations. The Department expects to issue a 
Request for Proposals later this spring and award contracts this year 
to conduct site evaluation studies. The Department has initiated an 
Environmental Impact Statement for the GNEP Technology Demonstration 
Program that will consider locations for siting the integrated 
recycling demonstration facilities. The results of the site evaluation 
studies will help inform the evaluation of potential locations. At this 
time, the GNEP Technology Demonstration Program does not contemplate a 
dedicated interim storage facility for spent fuel.

                    GNEP--ENGINEERING DEMONSTRATION

    Question. GNEP is focused on a near-term visible demonstration of 
the closed fuel cycle and has chosen the Engineering Scale 
Demonstration (ESD) at the Savannah River Site in South Carolina (SRS). 
However, before the Department proceeds with the construction of the 
UREX+ demonstration to recycle fuel it is important that the Department 
is able to confirm that the fuel itself can be manufactured and 
qualified in a reactor.
    Before the Department undertakes a complicated construction 
project, are you absolutely confident that this technology will deliver 
a product that can be used and safely disposed in a fast reactor?
    Answer. No decision has been made regarding the location or 
locations for the GNEP technology demonstration projects. Technical 
challenges do exist in the areas of the separation of spent nuclear 
fuel, manufacture of new fuel from recycled products, and the 
destruction of the long-lived radioactive materials in a nuclear 
reactor. These challenges will be addressed both through continued 
applied research and the new demonstration facilities.
    Question. Without a fast reactor available in this country, how 
will you test and qualify the fuel to determine whether or not you have 
a viable product?
    Answer. The transmutation fuels could be tested and qualified in 
existing fast reactor facilities which are available internationally in 
Japan, France, and Russia.

                         DOE--COLLABORATIVE R&D

    Question. Traditionally, the Department hasn't always been 
successful in fostering cooperative research among the offices within 
the Department. There are relevant projects across the different 
repository, nuclear energy, science, and non-proliferation programs 
that can be integrated to take advantage of complimentary assets and 
related developments. For example, the NNSA has started constructing 
new MOX fuel production and fabrication facilities.
    How will these parallel efforts be used to accelerate the GNEP 
program?
    Answer. The Office of Nuclear Energy is the lead office for 
managing the GNEP program. In this capacity, NE will work with all of 
the relevant program offices, including the Office of Civilian 
Radioactive Waste Management, which has primary responsibility for the 
geologic repository; the Office of Science, which will be involved in 
simulation, research and development; and the National Nuclear Security 
Administration, which will serve a key role in developing advanced 
safeguards for the advanced recycle facilities. The Department will 
seek to ensure that the lessons learned for the NNSA MOX program are 
appropriately applied to the GNEP program.

                          RELIABLE FUEL SUPPLY

    Question. GNEP has proposed that the United States and several 
other countries should join together to supply nuclear reactors and 
fuel to the rest of the world. Late last year, the Secretary committed 
to down blend 17.4 tons of highly enriched uranium to establish the 
initial supply of available fuel. The budget documents are unclear as 
to how the cost of down blending the fuel will be paid and the 
timetable and terms of this activity. In addition, it is unclear if the 
Department has the authority to undertake this activity. Can you please 
provide for us a budget and schedule for the down blending activities 
and identify the existing authorities the Department will use to down 
blend this material in order to establish a Reliable Fuel Supply.
    Answer. The HEU is to be down blended at a commercial facility in 
the United States that will be selected through a competitive 
procurement. The current schedule is to issue a request for proposals 
in April 2006, award a contract this summer, and begin shipments of HEU 
to the winning bidder by the end of the fiscal year. Shipments will 
continue through fiscal year 2008. Down blending of the HEU at the 
commercial facility is to be completed by the end of 2009.
    Funding is needed to recast metal at Y-12 National Security Complex 
into a form suitable for shipment to the down blending contractor, 
package the HEU for shipment to the contractor, and develop and procure 
new shipping casks. The funding estimate for this work is approximately 
$9 million in fiscal year 2006, $15 million in fiscal year 2007, and $8 
million in fiscal year 2008. However, the Department of Energy proposes 
that the cost of down blending, including chemical processing to remove 
non-uranium constituents and procurement in the market of natural 
uranium blend stock, be paid for by allowing the contractor to retain a 
fraction of the resulting LEU. It is estimated that it will take 
approximately 70 MT of LEU ($130 million at current prices), leaving 
approximately 220 MT available for the Reliable Fuel Supply.
    The Secretary has authority under the Atomic Energy Act of 1954 
(AEA) and the USEC Privatization Act to enter into barter transactions 
with regard to uranium. Under section 3(d) of the AEA, the Secretary is 
to effectuate programs that encourage the ``widespread participation in 
the development and utilization of atomic energy for peaceful 
purposes.'' Under section 54 of the AEA the Secretary is authorized to 
export special nuclear material, including enriched uranium, under the 
terms of an agreement for cooperation arranged pursuant to section 123 
of the Atomic Energy Act, consistent with the requirements of section 
3112 of the USEC Privatization Act. Under section 55 of the AEA the 
Secretary is ``authorized, to the extent [he] deems necessary to 
effectuate the provisions of this Act'' to purchase or otherwise 
acquire special nuclear material. Section 3112(d) of the USEC 
Privatization Act authorizes the Secretary to ``sell natural and low-
enriched enriched uranium (including low-enriched uranium derived from 
highly enriched uranium) from the Department of Energy's stockpile'' 
where determinations are made that the material is not necessary for 
national security needs and that the sale will not have an adverse 
material impact on the domestic uranium market, and where the price 
paid is not less than the fair market value of the material. The HEU in 
question was declared excess to national security in 1994. The 
Secretary signed a determination that this activity would not have an 
adverse material impact on the domestic uranium industries on November 
4, 2005.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                CONSTRUCTION OF NEW NUCLEAR POWER PLANTS

    Question. Congress has consistently supported the administration's 
efforts to promote the use of safe and clean nuclear energy. In last 
year's appropriations bill, this committee provided even more funding 
than was requested by the Department. Also last year, the Senate, under 
the leadership of Chairman Domenici, passed landmark energy 
legislation, including a provision requested by the administration to 
provide additional incentives, including risk insurance, for new 
commercial nuclear power plants. My State is a leading site to host a 
new commercial nuclear power plant, which will not only provide jobs 
and stimulate economic development, but also could provide future rate 
relief to my State's electricity consumers, by relieving some of the 
burden of high cost natural gas currently used to generate electricity.
    Within the context of the proposed Global Nuclear Energy 
Partnership, does the administration remain strongly committed to 
fostering the development of new commercial nuclear power plants in the 
United States?
    Answer. The administration is and remains strongly committed to the 
development, licensing, and deployment of new nuclear power plants in 
the United States. GNEP will build on the recent advances made by the 
President and Congress to stimulate new nuclear plant construction in 
the United States. This will be accomplished by demonstrating the 
success of the streamlined regulations for siting, constructing, and 
operating new nuclear plants through the Nuclear Power 2010 program, 
and by implementing incentives enacted by the Energy Policy Act of 2005 
(EPACT 2005). The Nuclear Power 2010 program is a high priority at the 
Department of Energy for the near-term deployment of new nuclear power 
plants. This key program is the joint industry and government 
collaborative effort to address the barriers to deployment of new 
nuclear power plants in the near-term.

                           NUCLEAR POWER 2010

    Question. Why does the budget propose to reduce funding for Nuclear 
Power 2010 program, which is the principal DOE program to support the 
deployment of new commercial nuclear power plants on a fast track?
    Answer. The proposed budget for the Nuclear Power 2010 program was 
reduced due to the projected uncosted fiscal year program carryover 
into fiscal year 2006 and fiscal year 2007. Uncosted carryover can be 
attributed to the delay in initiation of the two New Nuclear Plant 
Licensing Demonstration projects with NuStart Energy Development LLC 
and Dominion Energy, the slower than expected ramp-up by one reactor 
vendor and an additional $10 million fiscal year 2006 appropriations 
over the budget request.
    Although we are optimistic that the industry will be able to move 
work forward and accelerate project spending; we believe that with 
these uncosted balances the work that needs to be done to keep these 
projects on schedule will be able to be accomplished.
    Question. Isn't this posture inconsistent with the plans and the 
significant budget increase requested for GNEP?
    Answer. The reduced fiscal year 2007 budget request for the Nuclear 
Power 2010 program is consistent with the originally planned work scope 
taking into consideration prior year carryover. The overall goals and 
outcomes of the Nuclear Power 2010 program will support the overall 
GNEP plan.
    Question. If this committee decided to restore the proposed funding 
cutback for the NP2010 program, would this not enable the Department to 
work with industry nuclear power plants?
    Answer. The President's budget request for the Nuclear Power 2010 
program will support the project activities as originally planned 
considering the program carryover expected at the end of fiscal year 
2006.

                             YUCCA MOUNTAIN

    Question. Yucca Mountain is critical and the Global Nuclear Energy 
Partnership program must always keep Yucca Mountain as a critical 
component. Please elaborate on your testimony on the ways we need to 
move forward with the licensing and construction of the Yucca Mountain 
repository regardless of GNEP.
    Answer. The administration is committed to the development of Yucca 
Mountain with or without the Global Nuclear Energy Partnership (GNEP). 
Under any fuel cycle scenario, there will be a need for Yucca Mountain 
for the permanent disposal of waste.
    The Department needs to move forward with the licensing and 
construction of Yucca Mountain that embodies the Secretary's direction 
for safer, simpler, and more reliable operations. We need to ensure 
that the license application process is based on sound science and that 
we demonstrate through our actions that we have met the quality 
assurance requirements of a nuclear licensee. In that regard, the 
Department is conducting additional work for the submittal of the 
license application to address the amended draft Environmental 
Protection Agency Radiation Protection Standards to extend the period 
of compliance from 10,000 to 1 million years as well as accommodate 
clean-canistered approach to spent fuel handling operations. 
Additionally, the Department is working with the Nuclear Regulatory 
Commission (NRC), industry and the utilities to develop the 
specifications for a canister that can be added to the license 
application materials.
    In order for the Department to receive a license from the NRC, it 
must demonstrate that it can operate under nuclear standards and 
requirements. This involves the establishment of a culture of 
credibility and integrity that earns respect regarding how it operates. 
We will also be investing significant time and resources in developing 
this culture.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid

                               ECONOMICS

    Question. DOE repeatedly has stated that it is premature to develop 
a cost estimate for the GNEP program. But the National Academy of 
Sciences presented cost estimates in 1996 based on several different 
fuel cycles, including one based on actinide-burning fast reactors, and 
DOE developed a very detailed cost estimate for the Accelerator 
Transmutation of Waste program in 1999. If DOE believes that these 
estimates are no longer appropriate, why can't it show exactly why that 
is the case?
    Answer. In 1996, the National Academy of Sciences (NAS) published a 
study entitled ``Nuclear Waste: Technologies for Separations and 
Transmutation.'' This study was technically very complete, and 
incorporated most technical knowledge available at the time. Cost 
studies used data available in the early 1990's, in particular for the 
cost of construction and operation of large separations plants, and 
focused mostly on data from then recently-built reprocessing plants in 
Europe. Data available in 2006 is significantly different due to two 
factors: first, operational experience developed within the French 
program since that report was written indicates several ways to very 
significantly reduce the cost of reprocessing; secondly, data available 
from research performed under the auspices of the Advanced Fuel Cycle 
Initiative point to new technologies that will significantly reduce the 
footprint--and therefore the cost--of reprocessing facilities.
    Furthermore, the NAS report was developed at a time when the 
prospect for nuclear energy growth was low, and when cheap oil was 
plentiful. Under these conditions, its cost analysis ignored several 
benefits of implementing separations and transmutation strategy, namely 
the possibility of avoiding additional repositories beyond Yucca 
Mountain, and the global peace dividend associated with a stable, 
proliferation resistant global nuclear enterprise.
    The Department of Energy (DOE) study on the cost of implementing an 
Accelerator Driven Transmutation of Waste infrastructure, published in 
1999, indicated very high costs associated with using an accelerator 
approach, which has since been abandoned in the United States, and has 
been seriously scaled back in Europe and in Japan. Both France and 
Japan are now proposing long term approaches similar to the technical 
approach proposed by the Global Nuclear Energy Partnership (GNEP) 
initiative.
    A full lifecycle economic analysis for the technologies proposed 
within the GNEP program is underway.
    Question. Given a flat budget overall for DOE, what related 
programs are you giving up to pursue this program?
    Answer. In fiscal year 2006, Congress appropriated $79.2 million 
(which includes the across-the-board rescissions) for the Advanced Fuel 
Cycle Initiative (AFCI). The Department is requesting $170.8 million in 
new funding to accelerate efforts to develop and demonstrate the 
advanced recycling technologies. The funding request is part of a 
broader prioritization of DOE program activities affecting not just 
AFCI but other programs within the Department.
    Question. What are the estimate costs according to the GEN IV 
program for the design of fast neutron reactors?
    Answer. The Generation IV program does not have a specific cost 
estimate for the design of fast reactors. These costs will be estimated 
over the next 2 years as the Department prepares the conceptual design 
of the advanced burner reactor and works to develop a baseline schedule 
and cost for demonstration of the technology. Under the Advanced Fuel 
Cycle Initiative, the Department would propose to invest $25 million on 
the advanced burner reactor technology in fiscal year 2007. However, as 
with the design of any complicated system, more definitive estimates 
will be developed as the design details are developed.
    In February 2006, the United States signed a Generation IV systems 
arrangement agreement with the Commissariat a L'Energie Atomique of 
France and the Japan Atomic Energy Agency to cooperate on the 
development of sodium fast reactors. It is anticipated that this 
agreement will establish the foundation for further collaborations on 
fast reactors with these countries, and others that are expected to 
join the agreement in the future, in support of GNEP.
    Question. How many existing reactors in the United States could use 
MOX fuel? How many would require costly retrofits?
    Answer. About 25 percent of the current light water reactors in the 
United States could use MOX fuel, while another 50 percent would 
require retrofits. The Global Nuclear Energy Partnership initiative 
does not propose to use MOX fuel; but would propose to develop a more 
advanced and proliferation resistant fuel.
    Question. How much of the $250 million requested for fiscal year 
2007 is new money, and how much is re-categorized spending?
    Answer. The Global Nuclear Energy Partnership is a new initiative 
that proposes to accelerate work underway within the Department's 
Advanced Fuel Cycle Initiative (AFCI) to develop more advanced 
proliferation resistant spent fuel recycling technology. In fiscal year 
2006, Congress appropriated $79.2 million (which includes the across 
the board rescissions) for AFCI. In fiscal year 2007, the Department 
has requested $170.8 million in new funding to accelerate development 
and demonstration of the advanced recycling technologies that are part 
of GNEP.
    Question. What are your key technical hurdles to implementing a 
system of reprocessing? How confident are you that you can develop 
reasonable cost estimates for overcoming these hurdles (given the 
Department's poor track record on costing out large, complicated 
projects)?
    Answer. The major technical challenges are in the areas of the 
separation of spent nuclear fuel and the manufacture of new fuel from 
recycled products. Both of these challenges will be addressed through 
continued applied research and technology development. The Department 
will conduct engineering design and environmental studies over the next 
2 years that will support the preparation of baseline costs and 
schedules for the demonstration of the separations of spent nuclear 
fuel, burning of the transuranics, and the development of a fast burner 
test reactor. We are confident that the work and efforts will provide 
the required information to support these baselines.

                INTEGRATED INTERIM STORAGE/REPROCESSING

    Question. In DOE's budget request for the GNEP program, the 
following statement is made under the heading of ``Detailed 
Justification'' for ``Systems Analysis'':

    ``In fiscal year 2006, the Department will focus its systems 
analysis efforts on evaluating the integrated fuel cycle system it has 
chosen to demonstrate at engineering scale. It will develop a plan for 
integrating a spent fuel recycle capability with interim storage of 
commercial spent nuclear fuel and complete an assessment of the 
proliferation resistance of certain aqueous separations technologies. 
This `Spent Fuel Recycling Plan' will be submitted to Congress as 
requested in the fiscal year 2006 Appropriations language.''

    Can DOE explain what is meant by ``interim storage'' in this 
context?
    Answer. Interim storage refers to the range of possibilities of 
storage of spent fuel from the time it is discharged from a reactor 
until it is separated. The Department has made no decisions regarding 
the timing for receiving and storing spent fuel that would be 
incidental to recycling or the locations for the spent fuel recycling 
demonstration facilities. It is anticipated that the approach to 
receiving and storing spent fuel incidental to recycling will be 
examined as part of the project definition and conceptual design phase 
that will occur over the next 2 years.
    Question. What sites are under consideration for such interim 
storage?
    Answer. The Department is not presently considering sites to be 
used solely for interim storage as part of a recycle strategy. Future 
site evaluation studies will identify the sites to be considered for 
recycling demonstration facilities and will consider the extent to 
which such sites have the capability to provide storage related to the 
recycling process.
    Question. What criteria will you use for identifying potential 
sites?
    Answer. The Department has not yet developed criteria that would be 
used to identify potential sites for spent fuel recycling demonstration 
facilities.
    Question. Are foreign sites under consideration?
    Answer. We do not anticipate using foreign sites to store U.S. 
spent fuel.
    Question. What analysis will be made about the costs of interim 
storage on-site as compared with interim storage at Yucca Mountain as 
compared with pool or dry-cask storage at potential reprocessing sites?
    Answer. The Department has not conducted analyses comparing costs 
of interim storage onsite to storage that is incidental to 
demonstration of advanced recycling technologies. The Department does 
not view process storage in connection with the GNEP Technology 
Demonstration Program as a means of fulfilling its existing 
responsibility to take and dispose of the spent fuel currently being 
stored at reactor sites.

                       SPENT FUEL RECYCLING PLAN

    Question. What offices will lead on the production of this report 
in the DOE and what other offices within DOE or what agencies will be 
involved?
    Answer. The spent fuel recycling plan will be developed by the 
Office of Nuclear Energy (NE). NE has the lead in developing and 
managing the Global Nuclear Energy Partnership initiative. NE is 
assisted by the Office of Civilian Radioactive Waste Management, which 
has primary responsibility for the geologic repository; the Office of 
Science, which is involved in simulation and basic research; and the 
National Nuclear Security Administration, which serves a key role in 
advancing non-proliferation, developing advanced safeguards for the 
recycling demonstration facilities, and in developing the fuel services 
component of GNEP.
    Question. Will a ``threat assessment'' be a part of this plan?
    Answer. The plan will identify what assessments must be done to 
enable recycling of spent fuel. Those assessments will cover safety, 
environmental, proliferation resistance, and physical protection of 
radioactive materials in accordance with laws, regulations, and DOE 
Orders.
    Question. What opportunities for public involvement will be there 
in the drafting of this plan?
    Answer. The Department anticipates delivering the spent fuel 
recycling plan to Congress by May 31, 2006. There will be extensive 
opportunities for public involvement in conjunction with the National 
Environmental Policy Act (NEPA) analyses of alternatives for facilities 
envisioned as part of the GNEP Technology Demonstration Program.
    Question. In what ways will the DOE produce this report in order to 
ensure compliance with NEPA?
    Answer. The Department remains committed to meeting the letter and 
the spirit of NEPA and will conduct a thorough review of the 
environmental impacts of appropriate alternatives. On March 22, 2006, 
the Department issued an Advance Notice of Intent (NOI) announcing its 
intent to prepare an Environmental Impact Statement for the GNEP 
Technology Demonstration Program. The Report to Congress is separate 
from this NEPA review and sets forth DOE's present vision for the GNEP 
Technology Demonstration Program.
    Question. How will this assessment affect the continued 
preparations for opening Yucca Mountain?
    Answer. The spent fuel recycling plan will articulate the 
Department's plan to demonstrate an integrated fuel cycle at a scale 
appropriate to determine the feasibility of full scale operations. The 
development and implementation of this plan does not affect the 
Department's continued preparation for licensing, construction and 
operation of Yucca Mountain. A geologic repository is a necessity under 
all fuel cycle scenarios, and the Department's budget request of $544 
million relating to Yucca Mountain will allow us to make steady 
progress on Yucca Mountain. The administration is committed to begin 
operations at Yucca Mountain repository as soon as possible so that we 
can begin to fulfill our obligation to dispose of the approximate 
55,000 metric tons of spent fuel already generated and the approximate 
2,000 metric tons being generated annually. We have no plans to delay 
disposal of this spent fuel until full scale recycling facilities are 
available.
    Question. To what extent will this report assess the economic 
implications of future fuel cycle activities?
    Answer. The Spent Nuclear Fuel (SNF) Recycling Program Plan 
addresses the near-term costs of the GNEP Technology Demonstration 
Program. The report, which is being provided to Congress in response to 
fiscal year 2006 Energy and Water Development (EWD) Conference Report 
language, does not assess the economic implications of the future fuel 
cycle activities or technologies. The report focuses on the 
demonstration of the advanced recycling technologies on a scale 
sufficient to evaluate potential commercialization of the technologies. 
System analyses are part of this plan as we go forward and will assess 
the full economic implications of advanced spent nuclear fuel 
recycling.

                                 WASTE

    Question. How much and what kind of waste would be produced by 
reprocessing? By transmutation?
    Answer. The volume and quantities of waste from reprocessing and 
transmutation are not known in detail today, since they will depend not 
only on process design considerations but also on the results of tests 
performed with the GNEP demonstration facilities. For example, no one 
has operated a fast burner reactor with transuranic fuel and the 
technical results from engineering-scale treatment of that spent fuel 
for further recycle will be available for the first time in 
approximately 15 years. In the meantime, laboratory scale tests will be 
performed using irradiated specimens from foreign fast test reactors 
(PHENIX in France and JOYO in Japan). Regardless of the processes 
finally chosen, there will be no high level liquid waste products.
    From the UREX+ separations plant, approximately 94 percent of the 
products will be highly purified uranium which will probably be stored 
for use as fuel in future fast power reactors. If it is judged to be 
surplus, it would be classified as a low level waste and disposed of by 
shallow burial. Approximately 25 percent by weight of the spent fuel 
going to a UREX+ plant is fuel cladding and end pieces. It will be 
compressed and disposed of as high level waste. A small amount of the 
cladding will be used to form an alloy with the fission product 
technetium for disposal in the same metal waste container.
    The fission product iodine will be collected from the dissolver 
off-gas, placed in a stable waste form and placed in the repository. 
Cesium and strontium will be separated, converted to an alumino-
silicate waste form and stored for approximately 200 years, by which 
time it will be a low level waste and disposed of by shallow burial. 
The remaining fission product, constituting approximately 5 percent of 
the spent fuel, will be mixed with borosilicate glass (with up to 50 
percent of the final glass logs being fission products) and disposed of 
at Yucca Mountain.
    The transuranics in the spent fuel, constituting approximately 1.1 
percent by weight, will be blended with fresh make-up uranium and 
converted to fuel for the fast test reactor. Recycle through fast 
burner reactors will result in a small quantity of fission product and 
process losses being removed from the processing system each cycle. The 
material will be formed into an inert waste form for disposal. The 
total quantities will be a very small fraction of the quantity of spent 
fuel entering the UREX+ processing plant (which under the current once-
through fuel cycle, would go directly to Yucca Mountain). Thus the 
overall quantities and heat loads of the final waste will be reduced 
greatly, allowing the technical capacity of the Yucca Mountain to be 
substantially increased.
    Question. Does DOE envision inviting other countries that we don't 
want to reprocess to ship their spent fuel to the United States? Could 
DOE provide a list of the countries whose spent fuel we would be 
accepting and reprocessing?
    Answer. We do not envision accepting spent fuel pursuant to the 
GNEP vision until there is sufficient advanced recycling capability 
available in the United States. At that time, we would have to consider 
the conditions under which the United States would reprocess another 
country's spent fuel. To meet nonproliferation objectives, the United 
States currently receives U.S.-origin Highly Enriched Uranium spent 
nuclear fuel from foreign research reactors. Additionally, the United 
States has from time-to-time received spent fuel from another country 
to achieve nonproliferation and other Departmental missions.

                        PAST REPROCESSING RECORD

    Question. Given that the United States has built three commercial 
reprocessing plants and none of them have worked, would there not be a 
danger that the reprocessing site would be turned into an interim 
storage site? (Indeed, that is exactly what happened to the 
reprocessing plant that GE built but never operated in Illinois.)
    Answer. Recycling of commercial spent fuel in the United States was 
ended in 1977 by Presidential order. Commercial reprocessing had been 
carried out from 1966 to 1972 at West Valley, New York, at which time 
the plant was shut down for modifications based on increased Nuclear 
Regulatory Commission (NRC) safety requirements. The combination of the 
Presidential Order and modification costs resulted in a decision to end 
the plant's operations. Two other commercial reprocessing plants 
(Morris, Illinois and Barnwell, South Carolina) were built but never 
operated with radioactive materials. Decreasing costs of low-enriched 
uranium have discouraged private investments in spent fuel 
reprocessing, particularly since the Federal Government assumed full 
responsibility for spent fuel management with the passage of the 
Nuclear Waste Policy Act in 1982 (as amended in 1987).
    The Department intends to carry out the GNEP initiative in an 
orderly manner over several decades with the goal of having in place an 
immensely more efficient fuel cycle in the future. The first phase is 
the demonstration of technical feasibility over the next decade. If the 
technologies are shown to be technically feasible, then the Department 
will seek to promote their deployment in a manner that is commercially 
viable.
    The Nuclear Waste Policy Act constrains the extent to which the 
Department can undertake interim storage and the administration's 
recently proposed amendment to the Nuclear Waste Policy Act did not 
include provisions related to interim storage of commercial spent fuel. 
However, we understand there are some members of Congress who are 
interested in pursuing interim storage as a temporary means of managing 
spent fuel while Yucca Mountain and recycling technology are being 
developed. Regardless, two conditions must be met. We must continue to 
ensure that Yucca Mountain is available regardless of fuel cycle 
scenario and regardless of the way the Department proposes to manage 
spent fuel, pending its disposal.

                     FAST REACTOR RECORD AND SAFETY

    Question. What are the safety risks of sodium-cooled reactor as 
opposed to a thermal water cooled reactor? Please describe the 
incidents that have occurred related to sodium cooled reactors.
    Answer. Both technologies are extremely safe. This conclusion is 
based on decades of operating experience with light water reactors and 
from large-scale demonstrations of sodium-cooled reactors in several 
countries. With respect to sodium-cooled reactors, these include:
  --More than 30 years experience with the French 560 MWt Phenix fast 
        reactor;
  --30 years experience in the United States with the EBR-II fast 
        reactor;
  --30 years experience with Japan's 100 MWt Joyo fast reactor;
  --30 years experience with Russia's 1000 MWt BN 350 reactor;
  --25 years experience with Russia's 1470 MWt BN 600 reactor;
  --13 years experience in the United States with the 400 MWt Fast Flux 
        Test Facility; and
  --13 years experience with France's 2900 MWt Superphenix reactor.
    Phenix and EBR-II have had issues involving such things as minor 
sodium leaks, but there have been no nuclear-related accidents at 
either of them.
    In addition, the passively safe design features that have been 
demonstrated in sodium-cooled reactors will provide an added layer of 
safety to Advanced Burner Reactors (ABRs). ABRs will undergo a safety 
review and certification process to assure safe operation.

                         PROLIFERATION CONCERNS

    Question. Would it be possible, and if so, how hard would it be, 
for a country or terrorist group to extract pure plutonium from the 
proposed transuranic radionuclide mix (for example, in a glove box)? 
Could a process such as pyroprocessing be adjusted to provide more pure 
plutonium?
    Answer. A country and a terrorist group represent two very 
different proliferation threats. In the case of a state actor, it has 
long been understood that radiation barriers provide no significant 
protection against chemical separation. Significant radiation barriers 
may provide protection against theft by sub-state actors depending upon 
the dedication of the sub-state group and the strength of the radiation 
field.
    From a state, or sub-state perspective, significant shielded glove 
box facilities and supporting equipment would be required to separate a 
weapon-significant quantity of plutonium from the UREX+ product. These 
facilities are commonly co-located with or adjacent to hot cell 
capabilities since typical small laboratory-scale radiochemical 
operations usually involve a variety of different radiation fields and 
contamination hazards. A PUREX facility is designed to produce and 
isolate plutonium in a readily usable form; a UREX+ facility is not. 
Further processing of the product of a UREX+ facility would require 
access to shielded radiochemical facilities and technical expertise to 
separate the plutonium into a more readily usable form. A sub-state 
actor would have to secure both long term access to these facilities 
and the radiochemical expertise required to perform the operations. 
Obviously, the state actor risks are higher in either case, since the 
resources of a state actor are significant in comparison with non-state 
adversaries. This is why IAEA safeguards are required on all non weapon 
state nuclear materials and facilities--including laboratory scale 
facilities. Reengineering a UREX+ facility could be detected by IAEA 
safeguards that are designed to detect such process modifications.
    Pyroprocessing, by design, is not capable of making clean 
separations of plutonium. It is also a much more difficult technology 
to master than basic aqueous processes since it involves specialized 
high temperature molten salt and dry box hot cell facilities. As such, 
it is expected that proliferators will use simpler, less costly and 
proven aqueous technology, such as PUREX, to separate plutonium.
    Question. It is vital to ensure that plutonium already separated by 
reprocessing is adequately secured against terrorist theft. What more 
should the U.S. Government be doing to ensure that nuclear stockpiles 
around the world are secure and accounted for and cannot fall into 
terrorist hands?
    Answer. I share your concern that separated plutonium and other 
nuclear weapons usable materials currently available in civil nuclear 
programs around the world could fall into the hands of terrorists. For 
this reason, as part of NNSA's Global Threat Reduction Initiation 
(GTRI), NNSA has been working on an accelerated basis to ensure that 
highly enriched uranium and separated plutonium currently used in 
civilian applications around the world are subject to effective 
physical protection. Furthermore, GTRI is developing a path forward for 
recovering and dispositioning these nuclear weapons-usable materials to 
high security sites within the United States or within another GTRI 
partner country with excellent nonproliferation and nuclear security 
credentials. To that end, NNSA currently is negotiating with several 
countries that possess these vulnerable, high-risk materials to develop 
a plan for recovery and disposition that will reduce or eliminate the 
risk of theft or diversion of these so-called ``gap materials'' that 
pose a security concern to the United States and the international 
community.
    Question. Dr. Finck of Argonne National Laboratories stated in his 
presentation before the Advanced Fuel Cycle Initiative's Semi-Annual 
Review Meeting in August of 2003, ``Expect that proposed dual tier fuel 
cycle cannot be made intrinsically proliferation resistant.'' Why is 
UREX+ not considered proliferation-resistant? What are the issues here?
    Answer. Dr. Finck's statement refers to ``intrinsic'' proliferation 
resistance. Intrinsic resistance is understood to mean the 
proliferation resistance of a system in the absence of any 
institutional, legal, or technical verification measures. The term 
``proliferation resistance'' should not be confused with being 
``proliferation-proof.'' A system that is truly intrinsically 
proliferation proof would not require safeguards.
    UREX+ is an aqueous separation method, and therefore it is possible 
to reengineer facilities and systems to separate plutonium. However, 
IAEA safeguards and other legal and institutional measures are 
significant ``extrinsic'' proliferation resistant features and would 
provide for the timely detection of tampering and re-engineering.
    We do not anticipate technical characteristics alone make the UREX+ 
process immune to exploitation by would-be proliferators. That is why 
we are proposing as part of our GNEP proposal to consider future 
recycling only in a limited number of fuel cycle states that already 
possess reprocessing technology.

                         INTERNATIONAL CONCERNS

    Question. Secretary Bodman, in a speech he gave on November 7, 
2005, at the 2005 Carnegie International Nonproliferation Conference, 
said: ``It is important to note that in addressing reprocessing--or 
recycling--technologies for dealing with spent fuel, we are guided by 
one overarching goal: to seek a global norm of no separated 
plutonium.'' and, ``Regardless of whether one believes reprocessing has 
worked well in those nations where it is practiced, I think everyone 
would agree that the stores of plutonium that have built up as a 
consequence of conventional reprocessing technologies pose a growing 
proliferation risk that requires vigilant attention.'' Given these 
statements, is it correct to say that the United States will not 
support the reprocessing of U.S. origin and controlled spent fuel in 
any of the foreign reprocessing plants, other than those already in 
place, such as with Japan? Should the U.S. reconsider that agreement? 
Given these statements, can you explain why the French plutonium 
company AREVA has reportedly stated that it hopes to sign new 
reprocessing contracts covering U.S. spent fuel?
    Answer. We have made no decisions regarding reprocessing of U.S.-
origin spent fuel in foreign reprocessing plants. It is an issue that 
needs to be examined in more depth as we establish partner nations 
under the GNEP vision.
    Question. Secretary Bodman has expressed doubt in the U.S. being 
able to afford to fulfill the GNEP vision by itself. Yet, for the near 
term the U.S. DOE strategy is to go it alone. What will be the schedule 
and pathway for intellectually and financially engaging international 
partners?
    Answer. Earlier this year, the Deputy Secretary of Energy and Under 
Secretary of State consulted government officials in a number of 
countries including the United Kingdom, France, Russia, Japan and 
China, each of whom have large investments in the commercial fuel 
cycle. These discussions focused on the objectives of the Global 
Nuclear Energy Partnership initiative and there was general agreement 
on the objectives. Since then, we have continued diplomatic and 
technical outreach to these and other nations which would be 
prospective partners. The U.S. strategy is to work with international 
partners in developing these technologies. For example, in January the 
United States, France and Japan signed an agreement to guide the 
cooperation on the research and development of sodium cooled fast 
reactors, a reactor concept that is under consideration for the 
Advanced Burner Reactor.

                  NEXT GENERATION NUCLEAR PLANT (NGNP)

    Question. With the new focus and funding drain due to GNEP, can the 
United States still afford to pursue a GEN IV plant that targets both 
electricity and hydrogen production?
    Answer. The Department is committed to pursuing the research and 
development necessary to inform a decision in 2011 on deployment of the 
Gen IV technology. The Department has requested $23 million in fiscal 
year 2007 to keep the program on pace to support a fiscal year 2011 
decision. Research underway includes development of coated particle 
fuel, qualification of high temperature materials for use in the 
reactor system, and development of analytical codes and methods to be 
used in assessing system performance. In addition, the very high 
temperature reactor technologies being investigated as the Next 
Generation Nuclear Plant could be among the concepts considered for 
deployment as small scale reactors under GNEP.

                                 TIMING

    Question. To date, UREX+ has been tested only on the gram scale, 
using technologies different than those that would be used for full-
scale operation and separating a somewhat different set of materials 
than is now proposed--yet it is now proposed to use it for processing 
the 63,000 tons of commercial spent fuel slated for disposal in a 
geological repository, and perhaps more. Wouldn't it be wiser to wait 
until the technology has been further developed before proceeding to an 
expensive engineering-scale demonstration, and before choosing between 
this technology and other proposed separations technologies?
    Answer. The separations technologies that the Department proposes 
testing have been studied for over 5 years and have been demonstrated 
at the laboratory scale in kilograms quantities. The Department 
believes that the UREX+ separations process is the best known and 
proven today. Only through proceeding with engineering scale 
demonstrations of the separations, fuels and reactor technologies will 
we learn the practicality and economics of deploying industrial scale 
facilities. Only by beginning these demonstrations now will we discover 
means to reduce their costs and deployment times. And only by beginning 
them now can we realistically expect them to be ready by the time they 
are needed in the future for commercial scale deployment.
    Question. Why should we choose between potential reprocessing 
technologies in the next few years, rather than allowing whatever 
technologies appear to be promising to continue to develop? Are we in 
danger of choosing a technology because it can be made available 
sooner, forgoing technologies that may be more promising but may take 
longer to develop?
    Answer. It is crucial that we start today to accelerate and 
demonstrate a more proliferation resistant fuel cycle--a fuel cycle for 
the future that can provide the benefits of nuclear energy to the world 
while effectively addressing civilian inventories of plutonium and 
reducing the quantity and toxicity of nuclear waste requiring a 
geologic repository.
    Over the last 5 years, the Department has pursued development of 
various flow sheets for a more proliferation resistant separations 
technology. The Uranium Extraction Plus or UREX+ has been successfully 
demonstrated at the ``laboratory scale''.

        REPROCESSING IN EUROPE (TRADITIONAL PUREX REPROCESSING)

    Question. The concept of ``recycling'' conveys the notion that 
countries such as France and the United Kingdom re-use the plutonium as 
they go, but actually MOX fuel is not made and used immediately. (Nor 
is the high-level liquid waste generated from reprocessing immediately 
vitrified; rather, it is stored in stainless steel tanks to cool.) More 
than 200 metric tons of commercial plutonium worldwide are separated 
and have not been used as MOX and the surplus is building up each year. 
Many reactors need costly modifications to use MOX and some reactors 
cannot be modified. There are about 80 metric tons of surplus plutonium 
at La Hague in France and similar amounts at Sellafield in the United 
Kingdom and about 40 metric tons in Chelyabinsk, Russia. The United 
Kingdom has no reactors that can use plutonium fuel and no operating 
MOX factory. How can the United Kingdom effort be described as a 
recycling program when the United Kingdom has amassed about 80 metric 
tons of civil weapons-usable plutonium and has no plan to use this 
material? (For Pu amounts reported to the IAEA--see INFCIRC 549, on 
IAEA web site). Why do we expect that the proposed program will be more 
successful in avoiding a buildup of the material separated by 
reprocessing?
    Answer. The GNEP vision would pursue different approaches to avoid 
buildup of pure plutonium separated by reprocessing. Plutonium would 
not be separated by itself; rather, plutonium would remain mixed with 
other transuranic elements. The Advanced Burner Reactors would more 
quickly consume these transuranic elements (including plutonium) than 
the reactors that use plutonium-MOX. Finally, the United States would 
pursue a phased approach that would bring the transuranic products from 
UREX+ in equilibrium with the fuel needs for the demonstration of the 
advanced burner reactor.
    Question. How much transuranic waste has been created by 
reprocessing in France and the United Kingdom, and how does it compare 
with the original spent fuel volume? Are the French planning to dispose 
of what they call ``intermediate waste'', including transuranic waste, 
generated from reprocessing (separate from the vitrified high level 
waste) in a deep geologic repository? How much of this waste will they 
have from reprocessing compared with the volume of spent fuel?
    Answer. France and the United Kingdom do not have a geologic 
repository program and are developing long-term disposal plans that 
would address many different wastes, including vitrified waste. The 
structure of waste regulations in both countries differs from the 
United States and the volumes of waste generated would not be directly 
comparable.
    Question. France uses plutonium fuel (MOX) in 20 out of 58 
reactors, but the stockpile of civil plutonium continues to increase 
with no end in sight. How can this growing stockpile be presented as 
``recycling''? MOX fuel produces less than 10 percent of France's 
nuclear electricity, but an official French report indicates that it 
imposes about $1 billion per year in added electricity costs. Why does 
Electricite de France (EDF), the state-owned utility forced to use MOX 
fuel, place a negative value on plutonium they must take from the 
reprocessing company (Cogema)? Isn't the French reprocessing company 
almost wholly owned by the government (about 85 percent as of 2004)?
    Answer. There are significant differences between the French 
approach to recycling and the approach being explored by the United 
States. The French MOX-recycling program is based on plutonium-only 
separation using PUREX and is aimed at obtaining modest energy recovery 
from that plutonium. The French program does not aim to maximize use of 
a geologic repository nor address repository costs in its current 
economics.
     GNEP has a broad range of objectives, including decreasing 
inventories of weapons-usable material (whether in used fuel or already 
separated), avoiding separation of pure plutonium, incorporation of 
newest safeguard design techniques, and making more efficient use of 
the U.S. geologic repository at Yucca Mountain. While the French 
program focuses on plutonium, the GNEP addresses proposed technologies 
relating to plutonium, americium, curium, and neptunium, thereby 
increasing waste management benefits. Recycle and consumption of 
plutonium, americium and neptunium decrease the geologic heat load and 
long-term potential doses. Recovery of uranium, at the purity level 
equal to low-level waste, reduces the volume of the waste. If the GNEP 
technologies are successful, the residual waste would be put into a 
form that is more resistant to long-term leaching than once-through 
used fuel, further reducing the technical requirements for geologic 
repository design.
    Question. The United Kingdom's THORP reprocessing plant, which 
reprocesses foreign light water reactor fuel, had a major accident 
which was discovered last year after several months (a leak of nuclear 
material onto the floor of one cell, due to a broken process pipe). The 
accident has resulted in the facility being shut down indefinitely, 
with the possibility that it might not start back up. The operators of 
this plant have asked the United Kingdom government to permanently 
close the plant, which has never been profitable. What is the risk of 
similar accidents and safety record in the United States if we pursue 
reprocessing?
    Answer. The overall safety record of fuel cycle operations in the 
United States is excellent, and is the model that should be followed in 
evaluation of fuel cycle issues. The safety of U.S. operations 
routinely exceeds established industrial standards of the countries in 
which they are deployed. The lessons learned from the leak at THORP, as 
well as all other off-normal events, have been closely studied and are 
well understood. The facilities under the GNEP initiative would be 
subject to rigorous safety analyses and regulatory oversight.

                           ENVIRONMENTAL/NEPA

    Question. What NEPA related requirements will have to be met in the 
course of developing GNEP in the next year/years to come?
    Answer. On March 22, 2006, the Department issued an Advance Notice 
of Intent (NOI) for the GNEP Technology Demonstration Program. Over the 
next 2 years, the Department plans to develop an Environmental Impact 
Statement to assess the potential environmental impacts associated with 
the GNEP Technology Demonstration Program. At an appropriate point in 
the future, DOE will prepare a Programmatic Environmental Impact 
Statement to inform the ultimate decision of whether to proceed with 
potential future actions to encourage the commercial-scale deployment 
of proliferation-resistant GNEP Technology Demonstration Program 
technologies.

                           PUBLIC DISCLOSURE

    Question. What was the nature of the briefings on GNEP given to and 
responses from the countries which have been briefed on this program? 
What companies were briefed as part of those briefings? And which U.S. 
companies have been briefed?
    Answer. Briefings by the U.S. Government on GNEP have proceeded 
with a variety of countries. Prior to the February 6, 2006 public 
announcement of GNEP, the administration consulted with officials from 
the United Kingdom, France, Russia, Japan, China and the International 
Atomic Energy Agency (IAEA), and the GNEP vision was well received in 
each case. These were government-to-government meetings. Part of the 
consultation with the officials from France included a meeting with 
representatives from Areva. Further technical discussions on areas for 
technology partnership are ongoing.
    Shortly after the February 6, 2006 announcement of GNEP, a cable 
was sent to all diplomatic posts providing information on GNEP. 
Government delegations from Canada, the Republic of South Korea, and 
Indonesia were briefed at their request. In addition, many science 
counselors from embassies that expressed interest in learning more 
about GNEP from Europe, Asia, Latin America and Africa were briefed in 
Washington. In March 2006, the IAEA Board of Governors was briefed, 
including representatives from nearly 40 countries. The response to the 
briefings reflected interest.
    Since the announcement of GNEP, the Department has provided 
briefings on GNEP to the U.S. nuclear industry through the Nuclear 
Energy Institute, and the National Association of Regulatory Utility 
Commissioners. The Department has held discussions with a number of 
U.S. utilities and nuclear suppliers that might have an interest in 
GNEP. The GNEP vision also has been discussed with representatives of 
foreign government-owned nuclear companies or their American affiliates 
at conferences or meetings on related matters (e.g., Generation IV).
    Question. Former Secretary of Energy Spencer Abraham has been named 
Chairman of Areva, Inc. in the United States. As the French company 
Areva strongly supports the development of reprocessing and favors 
reprocessing U.S. spent fuel in France, do any conflict of interest 
laws apply, and has Secretary Abraham lobbied the Department of Energy 
on this issue?
    Answer. Former Secretary Spencer Abraham terminated his Federal 
service on January 31, 2005. He continues to be subject to the post-
employment restrictions of 18 U.S.C. 207(a). That section prohibits, in 
part, a former employee from knowingly making, with the intent to 
influence, any communication to or appearance before any employee of 
any department, agency, or court of the United States on behalf of any 
other person in connection with a particular matter involving a 
specific party, in which the former employee participated personally 
and substantially as an employee of the government. That section also 
prohibits, a former employee from knowingly making such communications 
or appearances when the former employee knows or reasonably should know 
that the particular matter involving a specific party was actually 
pending under his official responsibility within a period of 1 year 
before the termination of his Federal service. Former Secretary Abraham 
is no longer subject to a number of other post-employment restrictions 
that ended 1 year after his Federal service terminated.
    To the best of my knowledge, former Secretary Abraham has not 
lobbied the Department on behalf of Areva, Inc.

                          SUBCOMMITTEE RECESS

    Senator Allard [continuing]. So we can move forward with 
our deliberations.
    And, without any more questions, I now declare the 
subcommittee in recess.
    [Whereupon, at 4:05 p.m., Tuesday, March 2, 2006, the 
subcom- 
mittee was recessed, to reconvene subject to the call of the 
Chair.]

</pre></body></html>
